Semiannual Report
 to the Congress
April 1, 1993 - September 30, 1993




    U.S. General Services Administration
         Office of Inspector General
         Foreword

This report summarizes the Office of Inspector General's
(OIG) activities between April 1, 1993 and September 30,
1993. During this period, we continued to focus on matters of
significant concern within GSA. I would like to highlight
several accomplishments that are important to both the OIG
and GSA.

 During this semiannual period, we issued 190 preaward
 contract audit reports to Agency officials. These reports
,contained over $268 million in financial recommendations.
 Our investigative activities included the convictions of a
 company officialfor submittingfalse statements and another
 company and its presidentfor bribery and related charges.
 Also, three Federal suppliers agreed to pay $1.6 million to
 settle their potential civil liability under the False Claims Act.

 Our internal audits resulted in 67 reports which included
 recommendations to improve program management. The
 most important report recommended an Agencywide
 reevaluation of the existing procurement personnel
 development programs so that GSA could strengthen its
 Governmentwide leadership position in the procurement
field.

This report also includes the statistics for the entire Fiscal
Year during which the OIG achieved many notable
accomplishments.

I want to take this opportunity to thank the GSA
Administrator and Members of Congress for their
unwavering support. I also want to commend the
contributions of each OIG employee to our achievements
during the past 6 months.




WILLIAM R. BARTON
Inspector General

October 31, 1993
  Table of Contents

                                                                                           Page

Summary of OIG Performance ............................................................ v

Fiscal Year 1993 Results ................................................................... vi

Overview and Focus on OIG Activities ............................................... vii

Organization, Staffing, and Budget .................................................... 1

Procurement Activities ....................................................................... 2

Agency Operations ............................................................................. 7

Prevention Activities ......................................................................... 12

Review of Legislation and Regulations .............................................. 15

Statistical Summary of OlG Accomplishments ................................. 16

Appendices

Appendix I - Significant Audits from Prior Reports ........................... 23

Appendix II - Audit Report Register .................................................. 26

Appendix III       Delinquent Debts ....................................................... 50

Appendix IV - Reporting Requirements ............................................. 51




                                                            OffIce of Inspector General iii
               Summary of OIG Performance

OIG Accomplishments   Total Financial Recommendations                 $274,392,717

                      •   Recommendations That Funds Be
                          Pu t to Better Use                          $268,262,778

                      •   Questioned Costs                               $6,129,939

                      Audit Reports Issued                                   279

                      Investigative Referrals                                276


Results Attained      Management Decisions and Other
                      Savings Achieved                                $241,801,232

                      Indictments and Informations                           28

                      Successful Criminal Prosecutions                       24

                      Civil Settlements                                       7

                      Contractors Suspended/ De barred                       86

                      Employee Actions Taken                                 19




                                                          Office of Inspector General v
                             Fiscal Year 1                      Results

                                  During Fiscal Year 1993, OIG activities resulted in:

                                  •    552 audit reports.

                                  •    31 implementation reviews of internal audit reports.

                                  •    Over $408 million in recommendations that funds be put to better
                                       use and questioned costs.

                                  •    Management decisions to put $383 million in funds to better use.

                                  •    $33.2 million recovered.

                                  •    293 new investigations opened and 350 cases closed.

                                  •    48 case referrals (66 subjects) accepted for criminal prosecution
                                       and 11 case referrals (13 subjects) accepted for civil litigation.

                                  •    43 criminal indictments/informations and 39 successful
                                       prosecutions on criminal matters referred.

                                  •    Civil complaints against 3 individuals and 18 civil settlements or
                                       judgments.

                                  •    3 referrals to other Federal and State entities for further
                                       investigation.

                                  •    53 personnel actions against GSA employees.

                                  •    76 contractor suspensions and 85 contractor debarments.

                                 •     443 legislative matters and 152 regulations and directives
                                       reviewed.

                                 •     650 Hotline calls and letters, 9 GAO referrals, and 50 other agency
                                       referrals.




vi Semiannual Report To The Congress
           Overview And Focus On OIG Activities

                   This report, submitted pursuant to the Inspector General Act oj 1978, as
                   amended, chronicles the activities oj the General Services
                   Administration's Office ojInspector General. It is the thirtieth Report to
                   the Congress since the appointment oj GSA'sfirst Inspector General.

Overview            Procurement Activities
                   Significant OIG audits and investigations resulted in:

                    •   Three civil fraud settlement agreements resulting in $l.6 million in
                        recoveries.

                   •    Conviction of a company vice president for submitting false
                        statements and obstructing the OIG investigation.

                   •    Successful prosecution of a company and its president for bribery,
                        racketeering, and related charges with imposition of a $1 million
                        fine.

                   •    Improved administration of cleaning services contracts resulting in
                        better services to customers.

                   •    Conviction of a company president for making false statements
                        that resulted in Federal customers receiving poor quality, foreign-
                        made products.

                   Agency Operations
                   In a series of internal reviews, we advised management of the need to:

                   •    See if interest charges may be assessed due to an advance
                        payment for services not yet provided.

                   •    Streamline the order processing system for telecommunications
                        services.

                   •    Reevaluate existing procurement personnel development
                        programs.

                   •    Provide adequate safeguards over surplus property and properly
                        account for property when sold during an auction.

                   •    Improve occupant emergency plans to ensure the safety of
                        individuals located in Federal buildings.

                   •    Provide better service to customers of local telecommunications
                        service.




                                                                OfTice of Inspector General vii
                 Overview And Focus On OIG Activities

                                    Prevention Activities
                                    OIG prevention activities included:

                                    •      Preaward reviews of 190 contracts with an estimated value
                                           of $2.4 billion.

                                    •      Integrity Awareness Briefings of 708 GSA employees.

                                    •      Advisory reviews of 12 lease proposals aimed at heading off
                                           potential problems.

                                    This period, we focused on areas highlighted in previous Reports to the
Focus                               Congress. As detailed below, many of the concepts reflected in the
                                    National Performance Review's (NPR) recommendations were already
                                    part of our planning and actions for this reporting period and the next
                                    few years.

                                    To better assist management, several years ago our audit program
                                    began to concentrate more attention on broad program reviews to
                                    evaluate and recommend ways to improve major GSA activities. We are
                                    striving to perform more effective program evaluations of GSA
                                    operations and are ready to commit the resources these long-term
                                    studies require. As Agency management seeks to leverage limited
                                    resources while achieving program goals, we believe these studies
                                    prove valuable. The NPR advocated this OIG concept, and we are
                                    pleased to report that our efforts predated the NPR suggestions. The
                                    speCialization of audit functions will consolidate expertise into reqUired
                                    service areas and result in higher quality, more timely management
                                    audit services. It will also enable the OIG to develop the speCialized
                                    expertise necessary for major program reviews.

                                    We are continuing to broaden our efforts to ensure suitable financial
                                    stewardship within GSA. As required by the Chief Financial Officers
                                    Act, we direct annual audits of the Agency's consolidated financial
                                    statements. Recently, this audit responsibility was expanded to include
                                    validating key program performance measures.

                                    Our investigations program will continue working to protect GSA
                                    procurement and contracting activities against criminal and civil fraud.
                                    Specifically, we will focus on defective pricing violations, submissions of
                                    substandard material by suppliers, unauthorized acquisition and
                                    diversion of property in the Federal surplus property program, and
                                    fraudulent billing practices. In addition, we will conduct national
                                    proactive investigations of several GSA programs in which we suspect
                                    fraudulent activity is occurring. We will also be placing an increased
                                    emphasis on working with management to identity and propose
                                    changes to those statutes and regulations which represent barriers to
                                    the efficient, economical performance of the Agency's diverse
                                    responsibilities.



viii   Semiannual Report To The Congress
Overview And Focus On DIG Activities

        We are closely examining our own internal operations to seek ways to
        "reinvent the OIG" by working smarter with fewer resources. Total
        Quality Process improvement teams are focusing on issues including
        employee performance and recognition processes, internal
        communication practices, contract audit review procedures, and
        refining secretarial and administrative practices. Our total quality
        environment approach now includes training and team-based problem
        solving. Within the next few months, we will re-examine our
        performance measures and incorporate the concepts of strategic
        planning for quality performance.

        Our organization has made significant strides during this reporting
        period and throughout Fiscal Year 1993. We have seen positive results
        from our efforts to streamline our operations and improve our services.
        By continuing our initiatives, and by incorporating NPR
        recommendations into our planning process, we are confident that our
        efforts will greatly benefit GSA, its customers, and the American
        taxpayers.




                                                    Office of Inspector General ix
               Organization, Staffing, and Budget

                      Pursuant to the Inspector General Act oj 1978, an Office oj Inspector
                      General was established within the General Services Administration on
                      October 1, 1978, As currently configured, the OIG consists oj six units
                      thatJunction cooperatively to peiform the missions mandated by the
                      Congress,

                      The OIG provides nationwide coverage of GSA programs and activities,
Organization          It consists of:

                      •     The Office of Audits, a multidisciplinary unit staffed with
                            financial and technical experts who provide comprehensive
                            coverage of GSA operations with program evaluations as well as
                            reviews of GSA contractors,

                      •     The Office of Investigations, an investigative unit that manages a
                            nationwide program to prevent and detect illegal and/or improper
                            activities involving GSA programs, operations, and personneL

                      •     The Office of Counsel to the Inspector General, an in-house
                            legal staff that provides legal advice and assistance to all OIG
                            components, These attorneys also represent the OIG in connection
                            with litigation arising out of or affecting OIG operations, and
                            prepare OIG comments on proposed legislation,

                      •     The Office of Administration, a centralized unit that provides
                            information systems support, handles budgetary, administrative,
                            and personnel matters, and formulates OIG comments on
                            proposed regulations and GSA policy issuances.

                      ..    The Office of Quality Management, an in-house staff that
                            promotes and coordinates the total quality process within all OIG
                            components, and coordinates quality improvement initiatives with
                            other Federal entities.

                      ..    The Internal Evaluation Staff, an analytical unit reporting
                            directly to the Inspector General that plans and directs an in-
                            house assessment program, including field office appraisals and
                            sensitive reviews of OIG operations.

                      The OIG is headquartered in Washington, DC, at GSA's Central Office
Office Locations      building. Field audit or investigations offices are maintained in Boston,
                      New York, Philadelphia, Atlanta, Chicago, Kansas City, Fort Worth, San
                      Francisco, Auburn, Cleveland, Los Angeles, and Washington, DC.

                      The OIG completed Fiscal Year 1993 with a total on-board strength of
Staffing and Budget   409 employees.

                      The   ~IG's   Fiscal Year 1993 budget was approximately $34.7 million.




                                                                     Office of Inspector General   1
                                Procurement Activities

                                    GSA is responsible Jor providing space jor almost 1 million Federal
                                    employees. GSA, therejore, acquires buildings and sites, constructs
                                   jacilities, and leases space as well as contracts jor repairs, alterations,
                                    maintenance, and protection oJGovemment-controlled space. GSA also
                                    operates a Govemmentwide service and supply system. To meet the
                                    needs oj customer agencies, GSA contracts jor billions oj dollars worth oj
                                   equipment, supplies, materials, and services each year. We review these
                                   procurements on both a preaward and postaward basis to ensure that
                                    the taxpayers' interests are protected. We perform approximately
                                   400 reviews each year.

Significant OIG                    Civil Settlements
Accomplishments                    This period, the Government entered into seven civil settlement
                                   agreements and a security agreement under which an individual Signed
                                   over assets to the Government to payoff a settlement. These
                                   agreements were negotiated by representatives of the Department of
                                   Justice and the GSA OIG. This reflects the ongoing efforts by the OIG
                                   to pursue cases involving procurement fraud and practices which
                                   threaten the integrity of the Government's procurement process.
                                   Highlights of selected cases follow.


                                   $1.6 Million in Civil Settlements
                                   In three separate cases, the Government entered into civil settlement
                                   agreements with a battery supply company, a manufacturer of
                                   automated data processing equipment, and a shoe manufacturer in
                                   which the companies agreed to pay the Government a total of
                                   $1,598,940 to settle their potential civil liability under the False
                                   Claims Act. Government customers paid higher prices for products
                                   because GSA negotiators did not receive full disclosure of the
                                   companies' discount and pricing information.

                                   •    Under the terms of the first agreement, a battery supply company
                                        agreed to pay $925,000. The company voluntarily disclosed its
                                        failure to pass on certain price reductions. Our review further
                                        disclosed that the firm sold items to its commercial customers at
                                        discounts greater than those disclosed or offered to GSA during
                                        contract negotiations.

                                   •    The second agreement provided that a manufacturer of automated
                                        data processing equipment pay the Government $583,940 to settle
                                        its potential civil liability. The agreement resulted from a review
                                        which showed that the company granted higher discounts to its
                                        commercial customers than disclosed to GSA during contract
                                        negotiations. GSA contracting officials relied upon these data, and
                                        as a result, the firm secured inflated prices from Federal
                                        purchasers.




2   Semiannual Report To The Congress
Procurement Activities

 •   Under the tenns of the third agreement, a shoe manufacturer
     agreed to pay the Government $90,000. An OIG review showed
     that the finn failed to disclose its pricing and discount information
     as required despite having certified the data was complete.

 •   Also during this reporting period, the former president of a
     chemical company executed mortgages and security interests in
     favor of the Government to secure payment of $250,000 as part of
     a $425,000 settlement. In return for the agreement, the
     Government agreed to dismiss its civil False Claims Act's action in
     Federal district court against the company and its principal
     officers. The company had had contracts with the Government for
     over 20 years, selling chemical products, including solvents used
     to clean fuel systems on Air Force jets. The company had failed to
     test products to detennine whether they would perform as required
     and substituted defective and contaminated products. The former
     president of the company had preViously pled guilty to Federal
     criminal charges in connection with this scheme. He and the
     company were preViously debarred from Government contracting
     by the Defense Logistics Agency. (The $425,000 was included in
     our previous semiannual Report to the Congress and is not
     included in this report's figures.)

 False Statements and Conspiracy Conviction
 In response to an anonymous complaint, the OIG investigated a
 company which contracted with the Government to provide night vision
 equipment.

 Our investigation disclosed that the company vice president falsely
 represented that he owned a legitimate commercial enterprise when, in
 fact, no company existed. The company official created this non-
 existent company to gain approval as a Multiple Award Schedule
 contractor. Representing the bogus company, the vice president
 submitted false cost and pricing data and catalogs to GSA for night
 vision equipment and in the process misrepresented himself as a
 distribu tor of this equipment. Between August 1988 and December
 1990, the company offlcial did over $7 million worth of business with
 the Government.

 A second aspect of this scheme involved the creation of a shell
 corporation to obtain night vision equipment from a manufacturer not
 authorized to sell in the United States. Mter the company official
 obtained the equipment, he then used the shell corporation as a means
 to make it available under the Multiple Award Schedule contract. The
 firm also submitted fabricated documents in response to an OIG
 subpoena for the purpose of covering up the scheme.

 On April 21, 1993, the company vice president pled guilty in U.S.
 District Court to submitting false statements and obstructing the OIG


                                              Office of Inspector General 3
                                Procurement Activities

                                   investigation. The company pled guilty to submitting false statements
                                   to GSA. The shell company pled guilty to aiding and abetting in the
                                   submission of false statements.

                                   The company vice president was sentenced to 15 months
                                   imprisonment, per count, to be served concurrently, and 3 years, per
                                   count, supervised probation. The company and the shell corporation,
                                   currently in bankruptcy proceedings, were each fined and ordered to
                                   pay special assessments and the company was also ordered to pay
                                   restitution.

                                   A post-investigation vulnerability assessment determined that the
                                   subjects carried out their criminal activity through intentional deceit
                                   and misrepresentation by furnishing false documents to contracting
                                   officials. These false documents were skillfully prepared and appeared
                                   to be in full compliance with procurement requirements. The
                                   documents were accepted as truthful assertions and formed the basis
                                   for award of the contract. The OIG concluded that GSA was victimized
                                   by an elaborately planned and executed fraud scheme. Prosecution,
                                   fines, and imprisonment of the defendants were an appropriate
                                   remedy. We further concluded that procurement officials acted
                                   reasonably in administering and awarding this contract. Changes to
                                   procurement systems were not warranted as a result of this OIG
                                   investigation.

                                   Bribery Scheme Conviction
                                   Ajoint GSA OIG, Environmental Protection Agency (EPA) OIG, and
                                   local police investigation was initiated after an EPA employee alleged
                                   that a company president offered a bribe. In return, the employee was
                                   to provide proprietary bid information on a construction contract and
                                   lease agreement for an EPA research facility advertised by GSA.

                                   After numerous monitored telephone conversations between the
                                   employee and the company officials, it was agreed that the company
                                   and its officials would pay a total of $36,000 upon receiving award of
                                   the contract. The company would pay the employee $18,000 upon
                                   delivery of the competitors' bid prices and another $18,000 upon being
                                   awarded the contract. The employee, operating under the gUidance of
                                   special agents, expertly gained the confidence of the company officials
                                   and they believed they were negotiating with a corrupt Government
                                   employee who had agreed to participate in their illegal scheme.

                                   Subsequently, the employee provided company officials dummy bid
                                   documents which had been specially prepared by the GSA Real Estate
                                   Division. During a clandestine meeting monitored by the special
                                   agents, the company vice president, the research director, and the
                                   employee discussed the bribe scheme, and the company officials paid
                                   $18,000 in exchange for the dummy bid documents. After the
                                   transaction, GSA and EPA agents identified themselves and secured


4   Semiannual Report To The Congress
Procurement Activities

 documents as evidence. Following preliminary questioning. the agents
 searched the company office and seized evidence including notes and
 an audio tape of conversations between the employee and one of the
 company officials in which the bribe scheme was discussed.

 On August 20, 1993, the company president pled guilty in U.S. District
 Court to having knowledge that the company bribed an official of the
 U.S. Government. Sentencing of the company president is scheduled
 for December 1993. The company pled guilty to bribery and
 racketeering charges and agreed to pay a $1 million fine.

 Cleaning Services Contracts
 The OIG completed a review of the administration of cleaning services
 contracts in one region. The review found that cleaning services, valued
 at over $12 million annually, were being provided in an effective
 manner but that contract administration needed to be strengthened.

 Our analysis revealed that monetary deductions for work not done and
 contract changes were not always processed in a timely manner. As a
 result, contractors may not be promptly correcting performance
 deficiencies and building occupants may not be receiving desired
 cleaning services.

 The May 11, 1993 report recommended that the Acting Regional
 Administrator:

 ..   Take deductions for non-performance from contractor payments in
      a timely manner.

 ..   Develop time frames for completing contract modifications.

 Responsive action plans were provided for implementing the report
 recommendations.

 False Statements Conviction
 The OIG investigated a company which contracted with the
 Government to manufacture work gloves for Federal customers in
 accordance with GSA requirements. The contract was valued at
 $515,000.

 The investigation was initiated after a GSA quality assurance speCialist
 advised the OIG about receiving a complaint from the U.S. Forest
 Service. The gloves supplied to the agency under this contract were of
 poor quality and foreign-made.

 The investigation determined that the company knew that the gloves
 were foreign-made and falsely certified that it had complied with all
 contract specifications and had manufactured the gloves in the United



                                              Ofilce of Inspector General 5
                                Procurement Activities

                                   States. The gloves supplied under the contract were manufactured in
                                   Colombia using foreign materials and labor. Also, a GSA quality
                                   assurance speCialist visited the company numerous times for on-site
                                   inspections. During these visits, the company president falsely
                                   demonstrated how the gloves were being produced in the plant and led
                                   the inspector to believe production was taking place in the plant.

                                   On May 11, 1993, the company president and the company pled guilty
                                   to charges of making false statements in certifYing the gloves were
                                   produced in the United States with domestic material and labor. Both
                                   were ordered to pay fines.                                       .




6   Semiannual Report To The Congress
                  Agency Operations

                  GSA is a central management agency that sets Federal policy in such
                  areas as Federal procurement. real property management. and
                  telecommunications. GSA also manages diversified Govemment
                  operations involving buildings management. supply Jacilities. real and
                  personal property disposals and sales. data processing. and motor
                  vehicle and travel management. In addition. GSA manages over
                  135 accountingJunds and provides cross-servicing supportJor client
                  agencies. Our audits examine the efficiency. effectiveness. and integrity
                  oj GSA programs and operations and result in reports to management.
                  Our intemal audits program is designed toJacilitate management's
                  evaluation and improvement oj control systems by identifying areas oj
                  vulnerability and including recommendations Jor improvement. This
                  period. the OIG performed 67 internal reviews on Agency program areas.


Significant OIG   FTS2000
                  FTS2000 provides agencies with long-distance telecommunications
Accomplishments   services provided by two vendors. This is a major contract program with
                  a potential $25 billion cost to the Government over a lO-year period. It
                  has been characterized as the largest private telecommunications
                  system in the world. as well as the largest non-space civilian agency
                  procurement.

                  7 to 10 Digits Dialing Conversion
                  An audit of GSA's contract modifications to convert the
                  Governmentwide telecommunications system from 7 to 10 digits dialing
                  concluded that two negotiated changes totaling $12 million could have
                  been accomplished more effectively.

                  The report disclosed that GSA violated the Advance Payment Statute by
                  authorizing an early. up-front payment for services not yet provided.
                  Also. we advised management that it should have attempted to more
                  fully explore alternative negotiation options for converting the system-
                  wide dialing. The report concluded that better reviews should be done
                  to make sure that funds are fully obligated for services received.

                  The July 16. 1993 report made several recommendations to the
                  Commissioner, Information Resources Management Service, and the
                  Associate Administrator. Office of FTS2000. These included
                  recommendations to:

                  •   Determine if an interest charge should be imposed because of the
                      advance payment.

                  •   Give appropriate training to FTS2000 and contracting personnel to
                      improve the funding review process.




                                                               Office of Inspector General 7
                                   Agency Operations

                                   Except for the violation of the Advance Payment Statute, GSA
                                   management did not agree with the audit conclusions. The audit is still
                                   in the resolution process.

                                   Service Order Handling
                                   The Office of FTS2000 operates two Service Oversight Centers which
                                   oversee the two contractors providing telecommunications services.
                                   GSA evaluates and approves customer orders prior to vendor
                                   installation. The audit examined the GSA oversight activity and the
                                   need for those order review processes under its operational control.

                                   The review pointed out that GSA could streamline its order processing
                                   oversight. It suggested that technical reviews of service orders should
                                   be done on a sampling basis. In addition, the review showed that
                                   management needed to identifY what improvements were needed, and
                                   to request funds for enhancing system support services. This would
                                   improve the system's capability and service order functions. Finally,
                                   the report pOinted out that Service Oversight Centers should watch key
                                   elements of vendors' performance to achieve timely delivery and higher
                                   quality of service.

                                   The June 21, 1993 report recommended that the Associate
                                   Administrator, Office of FTS2000:

                                   •    Position technical reviews outside the recurring order process.

                                   •    Plan for support services and submit timely budget requests.

                                   •    Strengthen and monitor contractor performance indicators to
                                        improve customer service delivery.

                                   Responsive action plans were provided for implementing the report
                                   recommendations.

                                   Procurement Personnel Development
                                   Over 25 percent of GSA's professional personnel are engaged in some
                                   aspect of procurement. Last year, the Agency awarded contracts worth
                                   over $11 billion. This period we assessed whether contracting
                                   personnel received appropriate training and developed the skills
                                   needed to do their jobs effectively. Our assessment included
                                   discussions with many private sector firms regarding their training and
                                   development programs for similar positions.

                                   Our review showed that GSA has made positive strides in recruiting
                                   better educated personnel and in developing the abilities of its
                                   procurement staffs. Existing development programs generally have
                                   given contracting personnel a minimum level of expertise in
                                   procurement and recent initiatives have broadened the variety of



8   Semiannual Report To The Congress
Agency                 erations

training available. However, many of GSA's tenured contracting
personnel have not participated in expanded training programs at a
time when procurements are becoming more complex. Further, existing
development programs have addressed primarily the technical aspects
of the procurement process and need to be expanded to provide greater
exposure to products and services being obtained as well as industry
procurement practices and strategies.

The September 30, 1993 report to the Associate Administrator for
Acquisition Policy recommended an Agencywide reevaluation of the
existing procurement development programs so that GSA could
strengthen its Governmentwide leadership position in the procurement
field.

The Associate Administrator agreed with the recommendation in the
report. The audit is still in the resolution process.

Federal Surplus Property Donation Program
GSA is responsible for administering the Federal Surplus Property
Donation Program. Under this program, states are eligible to receive
Federal surplus personal property and donate it to qualified public and
private nonprofit organizations. This period, the OIG evaluated one
state's effectiveness in accounting for and distributing donated surplus
property.

Operations at the state agency for surplus property generally complied
with program requirements with some areas needing improvement.

We identified specific measures that management could take to ensure
that only authorized representatives receive property and that surplus
property is adequately protected from inclement weather or theft. Also,
steps need to be taken to see that property sold at auction is properly
recorded and that fees, paid to the state agency for the care and
handling of property, are verified.

The July 13, 1993 report recommended that the Acting Regional
Administrator, Federal Supply Service:

..   Have the state agency update donee eligibility files and verify the
     identity of representatives.

..   Provide adequate safeguards over the property and properly
     account for property when auctioned.

..   Verify fee calculations for property sold at auction.

The Acting Regional Administrator agreed with the recommendations.
The audit is still in the resolution process.



                                               Office of Inspector General 9
                                 Agency Operations

                                 Occupant Emergency Plans
                                 GSA is responsible for ensuring the safety of Federal employees and
                                 visitors while they are on Federal property. The OIG evaluated how
                                 effectively one GSA region administers its occupant emergency
                                 program.

                                 The review found that plans to ensure the safety of individuals located
                                 in Federal buildings could be improved.

                                 While recent Agency reviews found some areas needing improvement,
                                 more comprehensive reviews of occupant emergency plans need to be
                                 conducted. In many cases, emergency procedures and personnel
                                 rosters were out of date, provisions for evacuating the handicapped
                                 were incomplete, and personnel were neither trained nor aware of
                                 occupant emergency plan duties.

                                 The July 14, 1993 report recommended that the Acting Regional
                                 Administrator perform:

                                 It    More comprehensive reviews and include recommendations to
                                       correct deficiencies.

                                 ..    Annual reviews of occupant emergency plans for multi-story
                                       buildings.

                                 It    Training to assist Federal agencies in developing occupant
                                       emergency plans.

                                 The Acting Regional Administrator generally agreed with the
                                 recommendations. The audit is still in the resolution process.

                                 Local Telephone Service Program
                                 GSA provides local telephone service to customer agencies through
                                 equipment owned and operated by local telephone companies, and
                                 equipment owned and leased by GSA and maintained by commercial
                                 contractors.

                                 An evaluation of the program providing local telecommunications
                                 service to client agencies showed that GSA can improve service to
                                 customers in several ways. A better performance measurement
                                 standard is needed to evaluate the local telephone service program.
                                 Program costs can be lowered by improving the processing of local
                                 telephone company invoices, negotiating local rate agreements, and
                                 reducing the amount of long distance toll calls. Also, the process for
                                 developing billing rates for the local telephone service program could be
                                 improved by establishing multi-year rates.




10 Semiannual Report To The Congress
Agency               erations

The August 26, 1993 report recommended that the Acting
Commissioner, Information Resources Management Service:

•   Compare program costs with telephone services available from the
    private sector.

•   Improve invoice processing, local rate negotiations, and the
    management of toll calls.

•   Use multi-year rates to determine local telephone service rates.

The Acting Commissioner agreed with the recommendations. The audit
is still in the resolution process.




                                           Office of Inspector General   11
                                 Prevention Activities

                                   In addition to detecting problems in GSA operations, the OIG is
                                   responsibleJor initiating actions to preventJraud, waste, and abuse and
                                   to promote economy and efficiency.

                                   The OIG's preaward audit program provides information to contracting
Significant Preaward               officers for use in negotiating contracts. The pre-decisional, advisory
Audits                             nature of preaward audits distinguishes them from other audits. This
                                   program provides vital and current information to contracting officers,
                                   enabling them to significantly improve the Government's negotiating
                                   position. This period, the OIG performed preaward audits of
                                   190 contracts with an estimated value of $2.4 billion. The audit reports
                                   contained over $268 million in financial recommendations.

                                   Multiple Award Schedule Contracts
                                   This period, the OIG performed audits on 10 Multiple Award Schedule
                                   contracts dealing with photocopier equipment. Estimated Government-
                                   wide sales for these contracts were more than $1.4 billion. Based on
                                   their findings, the auditors recommended that over $171 million in
                                   funds be put to better use.

                                   The preaward audit reports showed many common problems in the
                                   pricing proposals reviewed. Companies were offering commercial
                                   customers better discounts than offered to GSA. The companies either
                                   did not disclose the higher discounts or did not provide adequate
                                   justification for not offering the higher discounts to GSA. Several audits
                                   also showed that vendors offered products that were not always offered
                                   commercially, and should not have been included in their price
                                   proposals.

                                   Other Contracts
                                   The OIG performed three significant audits recommending adjustments
                                   of more than $5.5 million. The audits involved a claim for increased
                                   costs, a proposal for construction services, and a proposal for
                                   architectural and engineering services. The total proposed costs
                                   exceeded $10 million.

                                   ..    The OIG audited a claim for increased costs related to the
                                         renovation of two Federal buildings. The contractor alleged that
                                         Government-caused delays resulted in increased costs. We advised
                                         the contracting officer that costs for labor, subcontracts, and
                                         overhead expenses were overstated.

                                   •     The OIG audited cost or pricing data submitted in response to a
                                         solicitation for construction of a Federal building. Audit
                                         adjustments were identified for labor costs and overhead expenses.
                                         Based on these findings, the auditors recommended reductions to
                                         the proposed amounts.




12   Semiannual Report To The Congress
                      Prevention Activities

                      ..   The OIG audited a proposal submitted for architectural and
                           engineering services related to the design of a Federal building. We
                           identified overstated proposed costs for direct labor and overhead.

                      Integrity Awareness Briefings comprise the ~iG's primary vehicle for
Integrity Awareness   educating employees on their responsibilities for the prevention of fraud
                      and abuse, and for reinforcing employees' roles in helping to ensure the
                      integrity of Agency operations.

                      This period, we presented 29 briefings which were attended by
                      708 Central Office and regional employees. These briefings explain the
                      statutory mission of the OIG and the methods available for reporting
                      suspected instances of wrongdoing. In addition, through case studies
                      and slides, the briefings expose GSA employees to actual instances of
                      fraud in GSA and other Federal agencies.

                      In addition, OIG representatives participated in a multi-state
                      conference regarding the Federal Surplus Property Donation program
                      and discussed the mission of the OIG and how it relates to the
                      program.

Advisory Lease        The ~iG's program for reviewing leases prior to award provides
                      front-end assurance that GSA is adhering to regulations and
Reviews               procedures before awarding selected leases exceeding established
                      thresholds.

                      These reviews, although advisory in nature, promote opportunities for
                      economy and efficiency in the leasing area, and the avoidance of
                      problems before they occur.

                      The program achieved the following results during the reporting period:

                              Lease proposals submitted for review ............... 65
                              Lease proposals reviewed ................................. 12
                              Lease proposals with deficiencies ....................... 7
                              Lease proposals with no deficiencies ................... 5

                      Some of the deficiencies identified through OIG advisory lease reviews
                      related to a discrepancy in the area of space for lease; unallowable
                      operating costs; a need to better justifY the economic merit of a
                      procurement; and incomplete and missing file documentation.

Hotline               The Hotline is another part of our prevention program. It provides an
                      avenue for concerned employees to report suspected wrongdoing.
                      Hotline posters located in GSA-controlled buildings, as well as Hotline
                      brochures, encourage employees to use the Hotline.




                                                                         Office of Inspector General   13
                               Prevention Activities

                                 During this reporting period, we received 165 Hotline calls and letters.
                                 Of these, 129 complaints warranted further action. We also received
                                 5 referrals from GAO and 34 referrals from other agencies; 22 of these
                                 referrals required further action.

                                 The OIG perfonns independent reviews of implementation actions, on a
Implementation                   test basis, to ensure that management's corrective actions are being
Reviews                          accomplished according to established milestones. This period, the OIG
                                 performed 16 implementation reviews. In 11 of these cases,
                                 management was successfully implementing the recommendations. In
                                 the other 5 instances, recommendations were not being implemented
                                 in accordance with the established action plans; we advised
                                 management of the need to revise the action plans.

                                 The Chief Financial Officers Act of 1990 requires the OIG to conduct or
Financial Statements             arrange for an annual audit of GSA's consolidated financial statements.
Audit                            The Act also requires a report on the internal accounting control
                                 system in effect at fiscal year-end. The OIG through use of an
                                 independent public accounting firm perfonned these audits for Fiscal
                                 Year 1992. The auditor's opinion, dated June 24, 1993, stated that
                                 GSA's consolidated financial statements present fairly, in all material
                                 aspects, the financial position of the Agency. The report on the system
                                 of internal controls described one material weakness regarding the
                                 need to better maintain documentation supporting office space rental
                                 rates and discussed several other conditions where steps should be
                                 taken to strengthen internal controls.




14 Semiannual Report To The Congress
Review of Legislation and Regulations

         Pursuant to the Inspector General Act of 1978, the OIG is required to
         review existing and proposed legislation and regulations to determine
         their effect on the economy and efficiency of the Agency's programs and
         operations and on the prevention and detection offraud and abuse.

         During this period, the OIG reviewed 316 legislative matters and
         81 proposed regulations and directives. The OIG provided significant
         comments on the following legislative items:

         •   H.R. 2238. The Federal Acquisition Improvement Act of 1993.
             We opposed the bill because it would eliminate the Government's
             right to inquire about what percentage of a potential Government
             contractor's business is conducted with commercial customers.
             This would hamper the Government's ability to determine if there
             is a "commercial price" for products or services or if the
             Government should seek cost or pricing data from the contractor.
             The lack of cost or pricing information for products or services
             where there may be no commercial market could lead the
             Government to agree to pay higher prices than it would otherwise.

         •   S. 984, The Privacy for Consumers and Workers Act. The bill
             would regulate electronic monitoring of employees by their
             employers for the express purpose of performance evaluation. We
             strongly advocated the exemption from the bill of Federal services
             engaged in law enforcement activities. If enacted, the bill's
             provisions could conflict with the requirements of and protections
             afforded by the Privacy Act concerning access and maintenance of
             Federal law enforcement-related records and electronic data.




                                                    Office of Inspector General   15
         S tis tical Summary of OIG Accomplishments

                                 Audit Reports Issued
                                 The OIG issued 279 audit reports, including 2 audits performed by the
                                 OIG that were issued to other agencies and 23 audits performed for the
                                 OIG by another agency. The 279 reports contained financial
                                 recommendations totaling $274,392,717, including $268,262,778 in
                                 recommendations that funds be put to better use and $6,129,939 in
                                 questioned costs. Due to GSA's mission of procuring supplies and
                                 services for the Government, most of the recommendations that funds
                                 be put to better use were applicable to funds other agencies would
                                 expend under GSA's Governmentwide contracts.


                                 Management Decisions on Audit Reports
                                 Table 1 summarizes the status of the universe of audits requiring
                                 management decisions during this period, as well as the status of those
                                 audits as of September 30, 1993. Four reports more than 6 months old
                                 were awaiting management decisions as of September 30, 1993; but
                                 2 of them were preaward audits, which are not subject to the 6 month
                                 management decision requirement. The remaining reports had been
                                 removed from the management decision process due to ongoing
                                 investigative activity. These reports were returned to the OIG after



                  Table 1. Management Decisions on OIG Audits
                                                                  Reports with            Total
                                                   No. of              Financial        Financial
                                                  Reports      Recommendations
                                                          ,---------
                                                                                   Recommendations

 For which no management decision
 had been made as of 4/1/93
    Less than 6 months old                          90                   67         $ 39,435,857
    More than 6 months old                          19                   19            23,757,940
 Reports issued this period                        269                  164           270,375,040
 TOTAL                                             378                  250         $333,568,837
 For which' a management decision
 was made during the reporting
 period
     Issued prior periods                           105                  82         $  45,805,069
     Issued current period                         169                   88           200,043,834
 TOTAL                                             274                  170         $245,848,903
 For which no management decision
 had been made as of9/30/93
     Less than 6 months old                         100                  76         $  70,331,206
     More than 6 months old                         ~                   -±             17,388,728
 TOTAL                                             104                   80         $ 87,719,934




16 Semiannual Report To The Congress
      Statistical Summary of OIG Accomplishments

                             being declined for criminal or civil action, and have just been returned
                             to the management decision process. Table 1 does not include 2 reports
                             issued to other agencies this period and 22 reports excluded from the
                             management decision process because they pertain to ongoing
                             investigations.

                             Management Decisions on Audit Reports With Financial
                             Recommendations
                             Tables 2 and 3 present the audits identified in Table 1 as containing
                             financial recommendations by category (funds to be put to better use or
                             questioned costs). Some of the reports contained recommendations that
                             funds be put to better use as well as questioned costs, and these
                             reports are therefore included in both Tables 2 and 3.




            Table 2. Management Decisions on OIG Audits with
            Recommendations that Funds be Put To Better Use
                                                        No. of                  Financial
                                                       Reports              Recommendations

For which no management decision had
been made as of 4/1/93
   Less than 6 months old                                  59                  $ 37,468,388
   More than 6 months old                                  14                     6,112,979
Reports issued this period                                143                   264,245,101
TOTAL                                                     216                 $307,826,468
For which a management decision was
made during the reporting period
   Recommendations agreed to by
   management based on proposed
   .. management action                                                        $ 235,625,485
   .. legislative action
   Recommendations not agreed to
   by management                                                                    6,191,274
TOTAL                                                     149                 $241,816,759
For which no management decision had
been made as of 9/30/93
   Less than 6 months old                                  65                  $ 65,738,332
   More than 6 months old                                 --.2                      271,377
TOTAL                                                      67                 $ 66,009.709




                                                                        Office of Inspector General   17
         Statistical Summary of OIG Accomplishments


                        Table 3. Management Decisions on OIG
                            Audits with Questioned Costs
                                                   No. of         Questioned      Unsupported
                                                  Reports           Costs            Costs
 For which no management decision
 had been made as of 4/1/93
     Less than 6 months old                           8       $    1,967,469               $-
     More than 6 months old                           5           17,644,961
 Reports issued this period                          21            6,129,939
 TOTAL                                               34       $25,742,369                  $-

 For which a management decision
 was made during the reporting
 period
      Disallowed costs                                        $ 3,595,600                  $-
      Costs not disallowed                                        456,544
 TOTAL                                               21       $ 4,052,144 *                $-
 For which no management decision
 had been made as of9/30/93
      Less than 6 months old                         11       $ 4,592,874                  $-
      More than 6 months old                         ~          17,117,351
 TOTAL                                               13       $21,710,225                  $-

 * Includes   $20,000 that management decided to seek that exceeded recommended amounts.



                                  Investigative Workload
                                  The OIG opened 138 investigative cases and closed 170 cases. In
                                  addition, the OIG received and evaluated 125 complaints and
                                  allegations from sources other than the Hotline that involved GSA
                                  employees and programs. Based upon our analyses of these complaints
                                  and allegations, OIG investigations were not warranted.




18 Semiannual Report To The Congress
Statistical Summary of OIG Accomplishments

                     Referrals
                     The OIG makes criminal referrals to the Department of Justice or other
                     authorities for prosecutive consideration and civil referrals to the Civil
                     Division of the Department of Justice or a U.S. Attorney for litigation
                     consideration. The OIG also makes administrative referrals to GSA
                     officials on certain cases disclosing wrongdoing on the part of GSA
                     employees, contractors, or private individuals doing business with the
                     Government.


              Table 4. Summary of OIG Referrals
  Type of Referral                           Cases                         Subjects
                                                       -,~~--~~-.~-""---




   Criminal                                    33                              62
   Civil                                       20                              29
   Administrative                              72                             185
   TOTAL                                      125                            276


                     In addition, the OIG made 3 referrals to other Federal activities for
                     further investigation or other action and 68 referrals to GSA officials for
                     informational purposes only.

                     Actions on OIG Referrals
                     Based on these and prior referrals, 15 cases (38 subjects) were
                     accepted for criminal prosecution and 8 cases (10 subjects) were
                     accepted for civil litigation. Criminal cases originating from OIG
                     referrals resulted in 28 indictments/informations and 24 successful
                     prosecutions. OIG civil referrals resulted in 2 civil fraud complaints,
                     and 7 case settlements (involving 7 subjects). Based on OIG
                     administrative referrals, management debarred 58 contractors,
                     suspended 28 contractors, and took 19 personnel actions against
                     employees.




                                                                   Office of Inspector General   19
         Statistical Summary of OIG Accomplishments

                                 Monetary Results
                                 Table 5 presents the amounts determined to be owed the Government
                                 as a result of criminal and civil actions. The amounts do not
                                 necessarily reflect actual monetary recoveries.

                                 In addition, the OIG identified for recovery $485,752 in money and/or
                                 property during the course of its investigations.



                          Table 5. Criminal and Civil Recoveries
                                                      Criminal                    Civil

           Fines and Penalties                    $    123,025              $     15,000
           Settlements or Judgments                                             1,880,420
           Restitutions                                 75,950
          TOTAL                                  $ 198.975                  $1,895,420




20 Semiannual Report To The Congress
APPENDICES
      Appendix /- Significant Audits From Prior Reports

Under the Agency's audit management decision process,         Computer Security and Fire Safety
GSA's Office of Administration, Office of Management
Controls and Evaluation, is responsible for tracking imple-   Period First Reported: October 1, 1992 to March 31,
mentation of audit recommendations after a management         1993
decision has been reached. That office furnished the          Two reviews at computer facilities disclosed that improved
following status information.                                 security and fire safety practices were necessary. One
                                                              report was fully implemented as of September 30, 1993.
Thirteen audits highlighted in prior Reports to the           The remaining report contained five recommendations;
Congress have not been fully implemented; all are being       three have been implemented.
implemented in accordance with currently established
milestones.                                                     The first recommendation requires the designation of a
                                                                 system security officer, with an appropriate security
Vacant Space Management                                          clearance, for the computer facility. It is scheduled for
                                                              \.          .
                                                                 completlOn by February 28, 1994. The second recom-
Period First Reported: October 1, 1992 to March 31,              mendation involves establishing a monitoring system for
1993                                                             conducting periodic risk analysis. The Agency is revising
This review identified the need to improve vacant space          its actions concerning this recommendation. The revision
management. The report contained five recommenda-                is due October 31, 1993.
tions; three have been implemented.

One of the remaining recommendations involves                 Employee Benefits Programs
conducting space inspections and/or utilization surveys       Period First Reported: October 1, 1992 to March 31,
to verifY the accuracy of assignments, vacant space, and      1993
classification of space. The other recommendation involves
updating assignment files and drawings with current data      This review found that the processing of health benefit
and revising reports with corrections. This recom-            insurance transactions needed improvement. The report
mendation and the associated space inspections and/ or        contained two recommendations; all actions pertinent to
utilization surveys are scheduled for completion by           the recommendations have been implemented.
June 30, 1994.
                                                              One recommendation required a determination whether
                                                              it would be cost beneficial to recover health benefit insur-
Special O~der Program for Tools                               ance contributions for prior years and to take appropriate
                                                              action based on that determination. This recommendation
Period First Reported: October 1, 1992 to March 31,
                                                              remains open until all recovery actions are completed.
1993
This review revealed the need for better management of
the special order program for tools. The report contained     Lease Administration
nine recommendations; seven have been implemented.            Period First Reported: April 1, 1992 to September 30,
                                                              1992
One of the remaining recommendations involves
tracking of minimum order rejections by customer and          This review disclosed the need to improve lease admin-
increasing the frequency of supply evaluations for            istration. The report contained seven recommendations;
special order program items. It is scheduled for comple-      six have been implemented.
tion by January 31, 1994. The other recommendation
concerns analyzing special order program information          The remaining recommendation involves recovering the
needs and establishing controls to ensure the informa-        amount overpaid for heating, ventilation, and air condition-
tion is accurate and useful. It is scheduled for completion   ing equipment. Collection is scheduled for November 15,
by July 31, 1994.                                             1993.



                                                                                         Office of Inspector General 23
        Appendix /- Significant Audits From Prior Reports

Controls Over Cash Receipts                                    Transportation Audit Program
Period First Reported: April 1, 1992 to September 30,          Period First Reported: October 1, 1991 to March 31,
1992                                                           1992
This review identified that controls over cash receipts from   This review revealed that document controls over bills
surplus personal property sales needed strengthening.          sent to contractors needed strengthening. The report
The report contained 12 recommendations; 10 have been          contained four recommendations; three have been
implemented.                                                   implemented.

One of the remaining recommendations involves                  The remaining recommendation involves the reinstitu-
developing procedures for levels of access to the auto-        tion of a quality assurance program with measurable
mated sales system. It is scheduled for completion by          performance standards for contractors, with tests of
February 28, 1994. The other recommendation involves           performance and follow-up action. The remaining actions
developing procedures for approving and processing sales       include two reports on quality assurance reviews, which
returns. It is scheduled for completion by November 30,        are scheduled for completion by July 31, 1994.
1993.

Contract Workload Management                                   Controls Over Receivables
Period First Reported: April 1, 1992 to September 30,          Period First Reported: October 1, 1991 to March 31,
1992                                                           1992
This review revealed the need to develop a strategy for
                                                               This review identified needed improvements to the billing
addressing procurement workload concerns. The report
                                                               procedures and financial computer programs for
contained one recommendation; it has not yet been imple-
                                                               receivables. The report contained three recommenda-
mented.
                                                               tions; two have been implemented.
This recommendation involves establishing a working
                                                               The last recommendation requires the development of a
group to develop a system for addressing identified issues
                                                               computer program which allows updates to multiple bills
and to give attention to the Multiple Award Schedule pro-
                                                               automatically for the same customer. It is scheduled for
gram concerns. An overall GSA strategy is scheduled to be
                                                               completion on September 30, 1994.
developed by October 31, 1993.

New Payroll System                                             Personal Property Sales
Period First Reported: April 1, 1992 to September 30,
                                                               Period First Reported: April 1, 1991 to September 30,
1992
                                                               1991
This review showed that improvements were necessary
to develop the new payroll system according to GSA's           This review identified the need for improved procedures
reqUirements. The report contained one recommenda-             and controls to process personal property sales proceeds.
tion; it has not yet been implemented.                         The report contained two recommendations; they have
                                                               not yet been implemented.
This recommendation requires oversight of the new
payroll system throughout its life cycle to ensure that the    The first recommendation reqUires the development of
system represents the efficient and economical application     automated procedures to process personal property sales
of ADP resources. Although oversight of the new payroll        proceeds. It is scheduled for completion by October 31,
system will continue throughout its life cycle, a sample       1993. 1he second recommendation, which involves devel-
summary of a quality assurance review is due                   oping software to record sales data on laptop computers,
October 30, 1993.                                              is scheduled for completion by December 30, 1993.




24 Semiannual Report To The Congress
      Appendix /- Significant Audits From Prior Reports

Relocation of Household Goods                                 Rent Exemptions
Period First Reported: October 1, 1990 to March 31,           Period First Reported: April 1, 1990 to September 30,
1991                                                          1990
This review identified the need to improve the operations     This review identified the need for better management
of the Household Goods Traffic Management program,            and control of rent exemptions. The report contained eight
The report contained five recommendations; four have          recommendations; seven have been implemented.
been implemented,
                                                              The remaining recommendation reqUires the analysis
The remaining recommendation involves requiring agen-         of a billing cycle and correcting the errors found. Imple-
cies to submit carrier evaluation forms in a timely manner    mentation is scheduled by October 31, 1993.
and establishing procedures to furnish performance data
to carriers. It is scheduled for completion by February 28,
1994.




                                                                                        Office of Inspector General 25
                     Appendix // .... Audit Report Register
                                                                                            Financial
                                                                                       Recommendations
                                                                                    Funds To      Questioned
Date of     Audit                                                                   Be Put To    (Unsupported)
Report      Number                               Title                              Better Use        Costs

(Note: Due to the pre-decisional nature of some audits, the financial recommenda-
tions pertaining to these reports are not listed in this Appendix.)

PBS          INTERNAL AUDITS
04/07/93    A21277        Audit of Region 4 Radon Program

04/08/93    A31233        Audit of Preaward Lease Actions: VA Hospital Parking
                          Deck, Birmingham, AL, Lease Number GS-04B-31402

04/09/93    A30935        Audit of Proposed Lease Number GS-03B-30060:
                          Townsend and McNulty Roads, Philadelphia,
                          Pennsylvania

04/12/93    A30337        Preaward Lease Review: Bureau of the Census, Lease
                          Number GS-01B-(PEL)-03817 NEG.

04/22/93    A21528       Audit of the Grand Rapids Buildings Management Field
                         Office, Region 5

04/23/93    A30918       Audit of Procurement Practices, East Philadelphia Field
                         Office, Philadelphia, PA

04/27/93    A31232       Audit of Preaward Lease Actions: Airport Executive
                         Center, Tampa, FL, Lease Number GS-04B-32864

05/07/93    A32473        Postaward Lease Audit: 1600 Riviera Avenue, Walnut
                          Creek, California, Region 9

05/10/93    A30333       Postaward Lease Audit of One Bowdoin Square, Boston,
                         MA, Lease Number GS-O 1B(PEL)-03791

05/10/93    A31235       Audit of Pre award Lease Actions: Wachovia Center,
                         Charlotte, NC, Lease Number GS-04B-32168

05/11/93    A22469       Audit of Administration of Cleaning Services Contracts,
                         Region 9

05/12/93    A30676       Preaward Lease Review: 601 West 26th Street, New York,
                         New York, Lease Number GS-02B-22719

05/12/93    A32412       Audit of Procurement Program, West Los Angeles Field
                         Office, Region 9

05/18/93    A30339       Preaward Lease Review: National Archives and Records
                         Administration, Lease Number GS-O 1B(PEL)-03841 NEG.


26 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                          Financial
                                                                                     Recommendations
                                                                                    -----------   - - - - -------------------

                                                                                  Funds To      Questioned
Date of    Audit                                                                  Be Put To    (Unsupported)
Report     Number                             Title                               Better Use        Costs

05/19/93   A22473     Audit of Lease Acquisition Process, Real Estate Division,
                      Region 9

OS/28/93   A32159     Audit of Procurement Procedures at Buildings Manage-
                      ment Field Office, Oklahoma City

OS/28/93   A33034     Preaward Lease Audit: Columbia Plaza Office Building,
                      2401 E Stre~t, NW, Washington, DC, Lease Number
                      GS-IIB-lO 187

06/04/93   A32143     Preaward Lease Review: 10100 Reunion Place, San
                      Antonio, Texas, Lease Number GS-07B-13982

06/15/93   A21562     Audit of Administration of Region 5, Mechanical and
                      Elevator Maintenance Contracts

06/16/93   A21883     Audit of the Region 6 Federal Protective Service Division

06/17/93   A30684     Preaward Lease Review: One Newark Center, Newark,
                      New Jersey, Lease Number GS-02B-22723

06/18/93   A32524     Pre award Lease Audit: 1431 Harbor Bay Parkway,
                      Alameda, California, Region 9, Lease Number
                      GS-09B-91730

06/28/93   A31816     Audit of Procurements Made by the Kansas City North
                      Field Office

07/09/93   A31239     Audit of Award and Administration of Lease GS-04B-
                      31107, Harlan, Kentucky

07/14/93   A21530     Audit of Region 5 Occupant Emergency Plans

07/14/93   A31560     Preaward Lease Review: Defense Finance and Account-
                      ing Service, Cleveland, Ohio, Lease Number GS-05B-
                      15615

07/16/93   A32420    Postaward Lease Audit: 221 North Figueroa Street, Los                                   $37,000
                     Angeles, California, Region 9

07/22/93   A23078    Audit of Procurement Procedures, Buildings Manage-
                     ment Field Office, Independence Field Office,
                     Washington, DC

07/22/93   A31818    Audit of Operations of the Public Buildings Service
                     Planning Staff in Region 6



                                                                                  Office of Inspector General                   27
                     Appendix //- Audit Report Register
                                                                                          Financial
                                                                                     Recommendations
                                                                                  Funds To      Questioned
Date of     Audit                                                                 Be Put To    (Unsupported)
Report      Number                              Title                             Better Use        Costs


08/11/93    A30336      Review of Building Management, Providence, Rhode
                        Island Field Office

08/18/93    A31555      Preaward Lease Review: U.S. Probation Office, Chicago,
                        Illinois, Lease Number GS-05B-15641

08/18/93    A32475      Postaward Lease Audit: 210 E. Earll Drive, Phoenix,                      $350,000
                        Arizona, Region 9

08/19/93    A32121      Audit of Certified Invoice Procedures, Region 7

08/31/93    A22541      Audit of Procurement Program, 450 Golden Gate Field
                        Office, Region 9

08/31/93    A23068      Audit of the Administration of Term Construction
                        Contracts

08/31/93    A32150      Audit of Buildings Management Field Office. Denver,
                        Colorado

09/07/93    A32487      Postaward Lease Audit: 865 Fulton Mall, Fresno,                           $14,951
                        CalifOrnia, Region 9, Lease Number GS-09B-91298

09/10/93    A32405     Audit of Procurement Program, Sacramento Field Office,
                       Region 9

09/29/93    A21503     Audit of Procurement Personnel Development

PBS         CONTRACT AUDITS
04/02/93   A33026       Report on Application of Agreed Upon Procedures for
                        Forward Pricing Rates Under Solicitation No.
                        GSIIP93EGC0001: Hellmuth, Obata and Kassabaum,
                        St. Louis, Missouri

04/06/93   A31537       Pre award Audit of Architect and Engineering Services
                        Contract: Schmidt, Garden & Erikson, Inc., Solicitation
                        Number GS05P92GBCOO 19

04/06/93   A33027      Report on Audit of Subcontractor Proposal to Hellmuth,
                       Obata & Kassabaum, P.C., for Initial Pricing Under RFP
                       No. GSI1P93EGC0001, Submitted by Hankins &
                       Anderson, Inc., Richmond, Virginia




28 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                            Financial
                                                                                       Recommendations
                                                                                    Funds To      Questioned
Date of    Audit                                                                    Be Put To    (Unsupported)
Report     Number                              Title                                Better Use        Costs

04/07/93   A31834     Audit of Claim for Increased Costs: Johnson Controls,
                      Inc., Subcontractor to Gross Mechanical Contractors,
                      Inc., Contract Number GS06P89GYCO 192

04/08/93   A30654     Pre award Audit of Cost or Pricing Data: Park Tower
                      Realty Corp., Contract Number GS-02P-91-CUC-0057

04/12/93   A30666     Review of Pretrial Stipulation on Accounting for Reloca-
                      tion of Hot Water Riser Costs: Terminal Construction
                      Corporation, Contract Number GS-02P-23256

04/15/93   A31832     Audit of Claim for Increased Costs: Spirco Environmen-
                      tal, Inc., Subcontractor to BSI Constructors, Inc.,
                      Contract Number GS06P89GYCO 192

04/16/93   A33008     Audit of Cost Reimbursable Contract: Radan Systems,
                      Inc., Contract Number GS-00P-88-BQD-0021

04/19/93   A31826     Preaward Audit of Change Order Proposal P-16:
                      Three S Constructors, Inc., Subcontractor to J.E. Dunn
                      Construction Company, Contract Number GS06P91-
                      GYC0048

04/21/93   A30635     Pre award Audit of Cost or Pricing Data, General
                      Liability Insurance: Linpro New York Realty, Inc., Contract
                      Number GS-02P-91-CUC0058

04/22/93   A30651     Preaward Audit of Supplemental Architect and Engi-
                      neering Services Contract: Ehrenkrantz and Eckstut
                      Architects, P.C., Solicitation Number GS-llP-92-
                      EGD-0019

04/22/93   A33029     Preaward Audit of Architect and Engineering Services
                      Contract: Shalom Baranes Associates, Architects, Con-
                      tract Number GS11P92EGD0019

04/27/93   A31221     Audit of Claim for Increased Costs: American Commer-
                      cial Contractors, Incorporated, Contract Number
                      GS-04P-91-CXC-0009

04/28/93   A31841     Preaward Audit of Change Order Proposal P-21: Eliason
                      & Knuth of Kansas City, Inc., Subcontractor to J.E. Dunn
                      Construction Company, Contract Number GS06P91-
                      GYC0048




                                                                                    Office of Inspector General 29
                     Appendix //- Audit Report Register
                                                                                           Financial
                                                                                      Recommendations
                                                                                          --            ----

                                                                                   Funds To      Questioned
Date of     Audit                                                                  Be Put To    (Unsupported)
Report      Number                              Title                              Better Use        Costs

04/28/93    A33028      Report on Application of Agreed-Upon Procedures to
                        Review of Pricing Proposal, Solicitation Number
                        GS11P92EGC0020: Ellerbe Becket, Inc., Minneapolis,
                        Minnesota

04/29/93    A31839      Preaward Audit of Change Order Proposal P-21: Joseph
                        Stowers Painting, Inc., Subcontractor to J.E. Dunn Con-
                        struction Company, Contract Number GS06P91-
                        GYC0048

04/29/93    A32153      Pre award Audit of Supplemental Architect and Engi-
                        neering Services Contract: Spectrum Associates, Inc.,
                        Solicitation Number GS-07P-93-JUD-000 1

04/29/93    A33033      Preaward Audit of Architect and Engineering Services
                        Contract: Wisnewski Blair and Associates, Limited,
                        Solicitation Number GSIIP92EGDOOll

04/29/93    A33432      Preaward Audit of Change Order Proposal: A. S.
                        McGaughan Company, Inc., Contract Number
                        GS-IIP91- MKC-O 196"U"

04/30/93    A30638      Preaward Audit of Cost or Pricing Data: BFT Properties,
                        Inc., Contract Number GS-02P-91-CUC-0057

05/04/93    A30335     Audit of Concession Contract: Corporate Chefs, Inc.,
                       Contract Number GS-O IP-89-BWC-0029

05/06/93    A31234      Preaward Audit of Architect and Engineering Services
                        Contract: Rosser Fabrap International, Incorporated,
                        SoliCitation Number GS-04P-92-EXD-0062

05/06/93    A31825      Preaward Audit of Change Order Proposal P-16: J .E.
                        Dunn Construction Company, Contract Number
                        GS06P91 GYC0048

05/06/93    A31842      Preaward Audit of Architect and Engineering Services
                        Contract: Shaughnessy Fickel and Scott Architects, Inc.,
                        Solicitation Number GS06P93GYCOOO 1

05/11/93    A30642     Review of Pretrial Stipulation on Accounting for
                       Subcontractor Pass-Thru Costs: Terminal Construction
                       Corporation, Contract Number GS-02P-23256




30 Semiannual Report To The Congress
                    Appendix // .... Audit Report Register
                                                                                               Financial
                                                                                  ~~
                                                                                          Recommendations ------------
                                                                                       -- --------- ---------   ~-




                                                                                       Funds To      Questioned
Date of    Audit                                                                       Be Put To    (Unsupported)
Report     Number                             Title                                    Better Use        Costs

05/11/93   A31830     Audit of Claim for Increased Costs: Guarantee Electri-
                      cal Company, Subcontractor to BSI Constructors, Inc.,
                      Contract Number GS06P89GYCO 192

05/12/93   A30674     Review of Pretrial Stipulation on Accounting for Incurred
                      Subcontractor Costs: Benjamin Electrical Engineering
                      Works, Inc., Terminal Construction Corporation,
                      Contract Number GS-02P-23256

05/17/93   A32478     Preaward Audit of Lease Escalation Proposal: C & C
                      Investments, Lease Number GS-09B-06600

05/18/93   A30653     Preaward Audit of Cost or Pricing Data: Bechtel Invest-
                      ments Realty Inc., Contract Number GS-02P-91-
                      CUC-0057

05/18/93   A33031     Preaward Audit of Architect and Engineering Services
                      Contract: Hartman-Cox Architects, Subcontractor to
                      Ellerbe Becket, Incorporated, Solicitation Number
                      GS11P92EGC0020

OS/20/93   A30663     Pre award Audit of Cost or Pricing Data: Tishman
                      Construction Corporation, Solicitation Number GS-02P-
                      91-CUC-0058

OS/20/93   A31848     Preaward Audit of Architect and Engineering Services
                      Contract: Construction Management Resources, Solici-
                      tation Number GS06P93GYCOOO 1

OS/20/93   A32485     Pre award Audit of Lease Escalation Proposal: C & C
                      Investments, Lease Number GS-09B-88730

OS/25/93   A31831     Audit of Claim for Increased Costs: Gross Mechanical
                      Contractors, Inc., Subcontractor to BSI Constructors,
                      Inc., Contract Number GS06P89GYCO 192

OS/27/93   A30680     Review of Pretrial Stipulation on Accounting for Costs
                      Directly Attributable to Terminal Construction Corpo-
                      ration, Contract Number GS-02P-23256

OS/28/93   A30646     Preaward Audit of Cost or Pricing Data: URS Consult-
                      ants, Inc./Crow Construction Company, Contract
                      Number GS02P89CUC0020(N)




                                                                                         Office of Inspector General 31
                     Appendix //-- Audit Report
                                                                                           Financial
                                                                                      Recommendations
                                                                                   Funds To      Questioned
Date of     Audit                                                                  Be Put To    (Unsupported)
Report      Number                              Title                              Better Use        Costs

OS/28/93    A30672      Preaward Audit of Supplemental Architect and
                        Engineering Services Contract: Paulus, Sokolowski and
                        Sartor, Inc., Solicitation Number GS-02P93CUD0060(N)

OS/28/93    A31843      Preaward Audit of Change Order Proposal P-21: Three
                        S Constructors, Inc., Subcontractor to J.E. Dunn
                        Construction Company, Contract Number GS06P91-
                        GYC0048

06/04/93    A33010      Preaward Audit of Cost or Pricing Data: Mel
                        McLaughlin Company, Contract Number GS-IIP92-
                        MQC0043 "NEG" (8(a))

06/07/93    A31226      Preaward Audit of Change Order Proposal: Wessels
                        Construction and Development, Inc., Lease Number
                        GS-04B-31332

06/09/93    A30661      Preaward Audit of Cost or Pricing Data: Broadway 29
                        Corporation, Contract Number GS-02P-91 CUC0058

06/09/93    A31237      Accounting System Audit Survey: MManTec, Incorpo-
                        rated, Contract Number GS-04P-91-EWC-0055

06/11/93    A31817      Audit of Claim for Increased Costs: BSI Constructors,
                        Inc., Contract Number GS06P89GYCO 192

06/11/93    A31845      Preaward Audit of Architect and Engineering Services
                        Contract: George Butler Associates, Inc., Solicitation
                        Number GS06P93GYCOOO 1

06/14/93    A30686      Preaward Audit of Change Order Proposal: Active Fire
                        Sprinkler Corp., Contract Number GS-02P-86CUC0096

06/16/93    A30658      Preaward Audit of Cost or Pricing Data Consulting Costs:
                        Linpro New York Realty, Incorporated, Contract No.
                        GS-02P-91-CUC0058

06/22/93    A30659     Preaward Audit of Cost or Pricing Data, Legal and
                       Accounting Costs: Linpro New York Realty, Inc.,
                       Contract Number 2P-91 CUC0058

06/22/93    A31556     Preaward Audit of Architect and Engineering Services
                       Contract: Paul 1. Cripe, Inc., Solicitation Number
                       GS05P92GBD0080




32 Semiannual Report To The Congress
                    Appendix /I . . . Audit Report Register
                                                                                         Financial
                                                                                    Recommendations
                                                                                    -------   ---

                                                                                 Funds To      Questioned
Date of    Audit                                                                 Be Put To    (Unsupported)
Report     Number                             Title                              Better Use        Costs

06/24/93   A33021     Audit of Claim for Increased Costs: S. W. Monroe
                      Construction Co., Contract Number GS-11P88MKC0246

06/25/93   A33032     Preaward Audit of Sole Source Contract: Apex Security,
                      Inc., Solicitation Number GS-11P-93-MJC-0009

06/29/93   A33036     Preaward Audit of Architect and Engineering Services
                      Contract: Sorg and Associates, P.C., Solicitation
                      Number GS11P93EGD0013

07/02/93   A30938     Preaward Audit of Supplemental Architect-Engineering
                      Term Contract: Hayes, Seay, Mattern & Mattern, Inc.,
                      Solicitation Number GS-03P-92-DXD-0068

07/09/93   A31844     Preaward Audit of Change Order Proposal P-21: Stultz
                      Manufacturing Company, Subcontractor to J.E. Dunn
                      Construction Company, Contract Number GS06P91-
                      GYC0048

07/20/93   A31846     Audit of Claim for Increased Costs: Industrial
                      Excavating and Equipment, Inc., Subcontractor to Rand
                      & Son Construction Company, Contract Number
                      GS06P92GYCOO 13

07/20/93   A33046     Report on Application of Agreed-Upon Procedures for
                      Review of Pricing Proposal Under RFP Number GS 11-
                      P93EGC0007: GHT Limited, Arlington, Virginia

07/21/93   A33040     Preaward Audit of Architect and Engineering Services
                      Contract: Settles Associates Incorporated, Solicitation
                      Number GS11P93EGD0014

07/22/93   A31557     Preaward Audit of Lease Escalation: Cleveland Rockford
                      Company, Lease Number GS-05B-12439 for the Period
                      November 1, 1992 through October 31, 1997

07/23/93   A30660     Preaward Audit of Cost or Pricing Data, Developer's Soft
                      Costs: Linpro New York Realty, Inc., Contract Number
                      GS-02P-91 CUC0058

07/23/93   A31850     Pre award Audit of Change Order Proposal P-21:
                      Capital Electric Construction Company, Inc., Sub-
                      contractor to J.E. Dunn Construction Company,
                      Contract Number GS06P91 GYC0048




                                                                                 Office of Inspector General 33
                      Appendix // . . . Audit Report
                                                                                           Financial
                                                                                      Recommendations
                                                                                   Funds To      Questioned
Date of     Audit                                                                  Be Put To    (Unsupported)
Report      Number                              Title                              Better Use        Costs

07/28/93    A30673      Review of Pretrial Stipulation on Accounting for
                        Subcontractor's Pass-thru Costs: National Sprinkler Cor-
                        poration, Subcontractor to Tenninal Construction
                        Corporation, Contract Number GS-02P-23256

07/28/93    A30948      Audit of Termination Settlement Proposal: Collins
                        Electric, Inc., Contract Number GS-03P-89-0XC-0057

07/28/93    A30949      Audit of Equitable Adjustment Claim: Collins Electric,
                        Inc., Contract Number GS-03P-89-0XC-0057

08/09/93    A32539      Preaward Audit of Architect and Engineering Services
                        Contract: Integrus Architecture, P.S., Solicitation
                        Number GS-ll OP-92-LID-O 106

08/09/93    A32540      Audit of Modified Coverage Under the Cost Accounting
                        Standards: Integrus Architecture, P. S.

08/10/93    A31243      Preaward Audit of Architect and Engineering Services
                        Contract: G. R G. VandeIWeil Engineers, Inc., Consultant
                        to CRSS Architects, Inc., Solicitation Number GS-04P-
                        93-EXC-0002

08/10/93    A33045      Report on Audit of Subcontractor Proposal to Shalom
                        Baranes Associates, under Solicitation Number
                        GSIIP93EGC0007: HNTB Corporation, Kansas City,
                        Missouri

08/18/93    A31855      Preaward Audit of Small Business Administration 8(a)
                        Pricing Proposal: HOB Construction, Inc., Solicitation
                        Number GS06P93GYC0052(N)

08/23/93    A32173      Preaward Audit of Change Order Proposal: Serna
                        Construction, Inc., Contract Number GS-07P-92-
                        JXC-0032

08/25/93    A3068 1     Preaward Audit of Cost or Pricing Data: BFT Properties,
                        Foley Square, L. P., Contract Number GS-02P-91-
                        CUC-0057

08/26/93    A30696      Summmy Review of Pretrial Stipulation on Accounting for
                        the Amended Complaint: Tenninal Construction
                        Corporation, Contract Number GS-02P-23256




34 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                            Financial
                                                                                       Recommendations
                                                                                   ------   ~.~---.-------




                                                                                    Funds To      Questioned
Date of    Audit                                                                    Be Put To    (Unsupported)
Report     Number                              Title                                Better Use        Costs

08/27/93   A33030     Audit of Claim for Increased Costs: Dynalectric
                      Company, a Subcontractor to S. W. Monroe Construction
                      Co., Contract Number GS-11P88MKC0246

08/27/93   A33047     Preaward Audit of Architect and Engineering Services
                      Contract: Alexandria Architects partnership, Solicita-
                      tion Numb~r GS11P93EGD0005

08/30/93   A31244     Preaward Audit of Architect and Engineering Services
                      Contract: CRSS Architects, Incorporated, Solicitation
                      Number GS-04P-93-EXC-0002

08/31/93   A32182     Pre award Audit of Supplemental Architect and
                      Engineering Services Contract: Chen-Northern,
                      Incorporated, Solicitation Number GS-08P-93-JXD-0041

09/02/93   A30344     Pre award Audit of Change Order Proposal: Bulfinch
                      Triangle Associates, Limited Partnership, Lease
                      Number GS-OIB(PEL)-03802 Neg.

09/02/93   A30692     Review of Pretrial Stipulation on Accounting for Pass-thru
                      Subcontractor Costs: I R Construction Products
                      Company, Inc., Subcontractor to Terminal Construction
                      Corporation, Contract Number GS-02P-23256

09/03/93   A32496     Pre award Audit of Cost or Pricing Data: White Glove
                      Service System, Inc., Solicitation Number GS-09P-
                      93-KSC-0081

09/07/93   A31571     Preaward Audit of Architect and Engineering Services
                      Contract: Hanscomb Associates Inc., Consultant to RIKL
                      Associates, Solicitation Number GS11P93EGC0008

09/10/93   A33048     Preaward Audit of Architect and Engineering Services
                      Contract: Diversified Engineering, Inc., Consultant to
                      Shalom Baranes Associates, Solicitation Number
                      GS 11P93EGC0007

09/17/93   A31858     Pre award Audit of Change Order Proposal P-21: J.E.
                      Dunn Construction Company, Contract Number
                      GS06P91 GYC0048

09/17/93   A32174     Preaward Audit of Supplemental Architect and
                      Engineering Services Contract: CTA Architects
                      Engineers, Solicitation Number GS-08P-93-JXD-
                      0041



                                                                                    Office of Inspector General 35
                     Appendix II .... Audit Report Register
                                                                                             Financial
                                                                                        Recommendations
                                                                                     Funds To      Questioned
Date of     Audit                                                                    Be Put To    (Unsupported)
Report      Number                               Title                               Better Use        Costs

09/20/93    A30675      Review of Pretrial Stipulation on Accounting for Pass-thru
                        Subcontractor Costs: Donaldson Acoustics Co., Inc.,
                        Subcontractor to Terminal Construction Corporation,
                        Contract Number GS-02P-23256

09/20/93    A31246      Preaward Audit of Small Business Administration 8(a)
                        Pricing Proposal: Curry Contracting Company,
                        Incorporated, Solicitation Number GS-04P-93-EXC-0023

09/22/93    A32179      Preaward Audit of Architect and Engineering Services
                        Contract: HTB, Inc., Solicitation Number GS-07P-
                        93-JUC-0003

09/24/93    A32517      Preaward Audit of Architect and Engineering Services
                        Contract: Dworsky Associates, Solicitation Number
                        GS-09P-93-KTC-00 14

09/24/93    A32523      Preaward Audit of Architect and Engineering Services
                        Contract: International Consulting Engineers, Inc.,
                        Solicitation Number GS-09P- 93-KTC-0015

09/27/93    A30956     Audit of Equitable Adjustment Proposal: Witherington
                       Construction Corporation, Contract No. GS-03P-90-
                       DXC-0208

09/27/93    A32497     Pre award Audit of Change Order Proposal: Central
                       Environmental, Inc., Contract Number GS-07P-91-
                       JXC-0136

09/27/93    A33052     Report on Audit of Proposed Direct Labor, Consultant,
                       Reproduction, CAD Scan and Overhead Costs Under
                       Solicitation No. GSIIP93EGC0008, RrKL Associates,
                       Inc., Washington, D.C.

09/28/93    A31251     Preaward Audit of Architect and Engineering Services
                       Contract: Barganier, Davis, Sims Architects Associated,
                       Solicitation Number GS-04P-93-EXC-0008

09/28/93    A33054     Report on Audit of Subcontractor Proposal to RTKL
                       Associates, Inc., Under Solicitation No. GSIIP93-
                       EGC0008 Submitted by Mariani Associates, Woodbine,
                       Maryland

09/29/93    A31250     Preaward Audit of Small Business Administration 8(a)
                       Pricing Proposal: Curry Contracting Company,
                       Incorporated, Solicitation Number GS-04P-92-EXC-0061



36 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                           Financial
                                                                                      Recommendations
                                                                                          -----    ----   -------

                                                                                   Funds To      Questioned
Date of    Audit                                                                   Be Put To    (Unsupported)
Report     Number                             Title                                Better Use        Costs

09/29/93   A321S0     Preaward Audit of Architect and Engineering Services
                      Contract: PSA Consulting Engineers, Inc., Solicitation
                      Number GS-07P-93-JUC-0003

09/29/93   A321S9     Preaward Audit of Architect and Engineering Services
                      Contract: EAPC Architects Engineers, Solicitation
                      Number GS-OSP-93-JXC-0065

09/29/93   A32196     Preaward Audit of Architect and Engineering Services
                      Contract: Schoen Associates, Inc., Solicitation Number
                      GS-OSP-93-JXC-0056

09/29/93   A32515     Pre award Audit of Cost or Pricing Data: A & B
                      Janitorial Service, Solicitation Number GS-09P-93-
                      KSC-0054

09/29/93   A32516     Preaward Audit of Architect and Engineering Services
                      Contract: Professional Service Industries, Inc., Solicita-
                      tion Number GS-09P-93-KTC-0014

09/29/93   A32545     Preaward Audit of Architect and Engineering Services
                      Contract: John A. Martin & Associates, Inc., Solicitation
                      Number GS-09P-93-KTC-00 14

09/29/93   A3301S     Audit of Claim for Increased Costs: Earl C. Wilson, Lease
                      Number GS-04B-2S0S5

09/29/93   A3303S     Pre award Audit of Change Order Proposal: PEC
                      Construction, Inc., Contract Number GS-11P91-
                      MKCOl72

09/29/93   A33465     Preaward Audit of Architect and Engineering Services
                      Contract: Greenhorne & O'Mara, Inc., Solicitation
                      Number GS 11P93EGCOOOS

FSS        INTERNAL AUDITS
04/14/93   A21845     Audit of the Federal Supply Service's Standardization
                      and Control of Industrial-Quality Tools Program

04/21/93   A20914     Audit of the Personal Property Donation Program,                               $84,962
                      Pennsylvania State Agency, Region 3

06/22/93   A32419     Audit of the Sacramento Fleet Management Center,
                      Region 9



                                                                                    Office of Inspector General 37
                     Appendix // .... Audit Report Register
                                                                                            Financial
                                                                                       Recommendations
                                                                                    Funds To      Questioned
Date of     Audit                                                                   Be Put To    (Unsupported)
Report      Number                              Title                               Better Use        Costs

07/13/93    A32120     Audit of Federal Surplus Property Donation Program,
                       State of Utah

07/19/93    A22537     Audit of FSS Personal Property Sales, Federal Supply
                       Service Bureau North, Region 9, Auburn, Washington

07/20/93    A22534     Audit of the Effectiveness of Monitoring Personal Property                  $116,500
                       Donations to the State of California, Region 9

08/05/93    A32135     Audit of Third Party Claims

08/13/93    A33437     Audit of the Personal Property Center, Observation of
                       Fiscal Year 1993 Physical Inventory

08/24/93    A21572     Audit of Twin Cities Fleet Management Center
                       Operations

FSS         CONTRACT AUDITS
04/02/93    A31215     Preaward Audit of Multiple Award Schedule Contract:
                       Bruel and Kjaer Instruments, Incorporated, Solicitation
                       Number FCGS-Y5-92-0032-B-N

04/02/93    A31230     Limited Audit of Government Billings: Bruel and Iqaer                          $4,879
                       Instruments, Incorporated, Contract Number GS-
                       00F-2429A

04/13/93   A32129      Preaward Audit of Multiple Award Schedule Contract:
                       Minnesota Mining and Manufacturing Company, 3M
                       Data Storage Markets Division, Solicitation Number
                       2FYS-AV-92-0001B

04/13/93   A32130      Preaward Audit of Multiple Award Schedule Contract:
                       Minnesota Mining and Manufacturing Company,
                       Consumer and Professional Video and Audio Markets
                       Division, Solicitation Number 2FYS-AV-92-0001B

04/14/93   A32147      Limited Postaward Audit of Multiple Award Schedule                            $5,654
                       Contract: Wabash Computer Products, Inc., Contract
                       Number GS-02F-4090A

04/19/93   A32447      Preaward Audit of Multiple Award Schedule Contract:
                       Ampex Recording Media Corporation, Solicitation
                       Number 2FYS-AV-92-0001B




38 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                         Financial
                                                                                    Recommendations
                                                                                              _.-
                                                                                  -- - - - - - - - - - - - - -   _.",._------

                                                                                 Funds To        Questioned
Date of    Audit                                                                 Be Put To    (Unsupported)
Report     Number                             Title                              Better Use        Costs

04/19/93   A32471     Preaward Audit of Multiple Award Schedule Contract:
                      Simple Green, Division of Sunshine Makers, Inc.,
                      Solicitation Number TFTC-92-MT-7906B

04/22/93   A31236     Report on Audit of Proposal for Initial Pricing: Trinity
                      Furniture, Incorporated, Trinity, North Carolina

04/22/93   A31538     Preaward Audit of Multiple Award Schedule Contract:
                      The Interior Steel Equipment Co., Solicitation Number
                      FCNO-92-S302-B-1-14-93

04/23/93   A31548     Limited Scope Audit of Government Billings: The                                               $6,591
                      Interior Steel Equipment Co., Contract Number
                      GS-00F-3832A

04/26/93   A30643     Preaward Audit of Multiple Award Schedule Contract:
                      Monroe Systems for Business, Inc., Solicitation Number
                      FCGR-92-0041-N

04/29/93   A30632     Preaward Audit of Multiple Award Schedule Contract:
                      Sony Corporation of America, Solicitation Number
                      2FYS-AV-92-0001 B

04/29/93   A30636     Preaward Audit of Multiple Award Schedule Contract:
                      Sharp Electronics Corporation, Solicitation Number
                      FCGR-92-0041-N

04/29/93   A30934     Preaward Audit of Multiple Award Schedule Contract:
                      Mita Copystar America, Inc., Solicitation Number
                      FCGR-92-0041-N

04/29/93   A31545     Preaward Audit of Multiple Award Schedule Contract:
                      Oce-Bruning, Inc., Solicitation Number FCGE-B5-
                      92-0115-B-N

05/05/93   A21566     Postaward Audit of Multiple Award Schedule Contract:
                      Westinghouse Electric Corporation: Furniture Systems
                      Division, Contract Number GS-00F-02679

05/18/93   A30671     Preaward Audit of Cost or Pricing Data: Adams
                      Magnetic Products, Inc., Solicitation Number 2FYS-AV-
                      92-000lB




                                                                                 Office of Inspector General 39
                     Appendix 1/- Audit Report Register
                                                                                        Financial
                                                                                   Recommendations
                                                                                            -----   --    --------

                                                                                Funds To      Questioned
Date of     Audit                                                               Be Put To    (Unsupported)
Report      Number                            Title                             Better Use        Costs

OS/20/93    A33444      Preaward Audit of Multiple Award Schedule Contract:
                        Crowley Micrographics, Inc., Solicitation Number
                        FCGE-B5-92-0 115B-N

OS/21/93    A31540      Postaward Audit of Multiple Award Schedule Contract:                        $47,824
                        Applied Learning International, Inc., Contract Number
                        GS-02F-52569 for the Period September 11, 1989
                        'Through April 15, 1991

OS/25/93    A30667      Preaward Audit of Cost or Pricing Data: Penetone
                        Corporation, Solicitation Number TFrC-92-SF-7936

OS/26/93    A31547     Preaward Audit of Multiple Award Schedule Contract:
                       A.B. Dick Company, Solicitation Number FCGE-B5-
                       92-0015-B

06/03/93    A33445      Pre award Audit of Cost or Pricing Data: American of
                        Martinsville, Solicitation Number 3FNH -93-D303-B

06/04/93    A33443      Preaward Audit of Multiple Award Schedule Contract:
                        Intrafed, Inc., Solicitation Number FCGE-B5-92-
                        01l5-B-N

06/10/93    A33419      Preaward Audit of Multiple Award Schedule Contract:
                        Savin Corporation, Solicitation Number FCGR-92-
                        0041-N

06/10/93   A33438      Limited Postaward Audit of Multiple Award Schedule                           $20,946
                       Contract: Savin Corporation, Contract Number GS-OOF-
                       4548A

06/15/93   A30323      Preaward Audit of Multiple Award Schedule Contract:
                       Konica Business Machines, U.S.A., Incorporated,
                       Solicitation Number FCGR-92-0041-N

06/15/93   A31551      Preaward Audit of Multiple Award Schedule Contract:
                       Bell & Howell Document Management Products
                       Company, Solicitation Number FCGE-B5-92-0115-B-N

06/15/93   A33439      Preaward Audit of Multiple Award Schedule Contract:
                       National Micrographics Systems, Incorporated,
                       Solicitation Number FCGE- B5-92-0115-B

06/15/93   A33447      Limited Scope Postaward Audit of Multiple Award                               $1,617
                       Schedule Contract: National Micrographics Systems,
                       Incorporated, Contract Number GS-00F-4401A



40 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                       Financial
                                                                                  Recommendations
                                                                               -----   ------      - ---

                                                                               Funds To      Questioned
Date of    Audit                                                               Be Put To    (Unsupported)
Report     Number                            Title                             Better Use        Costs

06/17/93   A30670     Preaward Audit of Multiple Award Schedule Contract:
                      Eastman Kodak Company, Solicitation Number
                      FCGE-B5-92-00 15-B-N

06/17/93   A32479     Preaward Audit of Cost or Pricing Data: J. Torres
                      Company, Inc., Solicitation Number 9FBG-OLC-N-
                      A1056/93

06/18/93   A30928     Preaward Audit of Multiple Award Schedule Contract:
                      Ricoh Corporation, Solicitation Number FCGR-92-
                      0041-N-10-8-92

06/18/93   A31542     Postaward Audit of Multiple Award Schedule Contract:                         $5,209
                      Spacesaver Corporation, Contract Number GS-OOF-
                      02601

06/21/93   A30650     Postaward Audit of Single Award Schedule Contract:                        $1,391,776
                      Readmore, Incorporated, Contract Number GS-02F-
                      4086A

06/21/93   A31853     Pre award Audit of Cost or Pricing Data: Barnes
                      Manufacturing Services, Inc., Subcontractor to
                      Specialized Products, Inc., Solicitation Number
                      6FES-G6-92G678-S

06/22/93   A30633     Preaward Audit of Multiple Award Schedule Contract:
                      Eastman Kodak Company, Solicitation Number
                      FCGR-92-0041-N

06/30/93   A30634     Preaward Audit of Multiple Award Schedule Contract:
                      Eastman Kodak Company, Solicitation Number FCGR-
                      92-0041-N

06/30/93   A30933     Preaward Audit of Multiple Award Schedule Contract:
                      Xerox Corporation, Solicitation Number FCGR-92-
                      0041-N-10-08-92

07/09/93   A31852     Pre award Audit of Cost or Pricing Data: Specialized
                      Products, Inc., Solicitation Number 6FES-G6-92- G678-S

07/23/93   A32154     Preaward Audit of Cost or Pricing Data: KLN Steel
                      Products Company, Solicitation Number 3FNH-93-
                      D303-B

07/27/93   A33457     Audit of Billings: PRC Inc., Contract Number
                      GS-00F-33101



                                                                               Office of Inspector General 41
                     Appendix //- Audit Report Register
                                                                                            Financial
                                                                                       Recommendations
                                                                                     ------            --------

                                                                                    Funds To      Questioned
Date of     Audit                                                                   Be Put To    (Unsupported)
Report      Number                              Title                               Better Use        Costs

07/29/93    A30936      Preaward Audit of Multiple Award Schedule Contract:
                        Canon U.S.A., Inc., Solicitation Number FCGE-
                        B5-92-0115-B-N

07/29/93    A32162      Preaward Audit of Multiple Award Schedule Contract:
                        Minnesota Mining and Manufacturing Company, Office
                        Document Systems Division, Solicitation Number
                        FCGE-B5-92-0115B-N

07/29/93    A32163      Preaward Audit of Multiple Award Schedule Contract:
                        Minnesota Mining and Manufacturing Company,
                        Engineering Document Systems Division, Solicitation
                        Number FCGE-B5-92-0115B-N

07/30/93    A30932      Preaward Audit of Multiple Award Schedule Contract:
                        Canon U.S.A., Inc., Solicitation Number FCGR-92-0041-
                        N-1O-08-92

08/06/93    A33446      Report on Audit of Adequacy of Disclosure Statement
                        Submitted by American of Martinsville

08/10/93    A32170      Preaward Audit of Multiple Award Schedule Contract:
                        Best Power Technology Sales Corporation, First Open
                        Season for Solicitation Number 7FXI -R7 -92-6109-1

08/11/93    A32190      Preaward Audit of Cost or Pricing Data: Sargent & Green-
                        leaf, Inc., Solicitation Number 7FXI-M7-92-5317-N

08/25/93    A32532      Preaward Audit of Multiple Award Schedule Contract:
                        Zero Stantron, Division of Zero Corporation, Solicitation
                        Number FCNH-91-F201-N

08/27/93    A31561     Preaward Audit of Multiple Award Schedule Contract:
                       Onan Corporation, Solicitation Number FCXA-IC-
                       93IFS-B

08/31/93   A30338      Preaward Audit of Multiple Award Schedule Contract:
                       Wang LaboratOries, Inc., Solicitation Number
                       FCGE-B5-92-0115-B-N

09/01/93   A30346      Preaward Audit of Multiple Award Schedule Contract:
                       Secure-it. Inc., Solicitation Number FCGE-93-C6- 0128N

09/03/93   A33460      Preaward Audit of Cost or Pricing Data: Encore
                       Temporary, Inc., Solicitation Number FCGS-Z2-91-
                       0030-N



42 Semiannual Report To The Congress
                    Appendix // .... Audit Report Register
                                                                                      Financial
                                                                                 Recommendations
                                                                               ----------              -
                                                                                            ----- - - - - - - - - - - - - - - - -

                                                                              Funds To      Questioned
Date of    Audit                                                              Be Put To    (Unsupported)
Report     Number                           Title                             Better Use        Costs

09/08/93   A31572     Limited Scope Postaward Audit of GF Office Furniture,                             $69,299
                      Ltd., Contract Number GS-00F-07017

09/08/93   A32533     Preaward Audit of Multiple Award Schedule Contract:
                      Arizona Instrument Corporation, Solicitation Number
                      FCGS-Z2-93-0036-B-N

09/10/93   A31570     Preaward Audit of Multiple Award Schedule Contract:
                      Herman Miller Limited, Solicitation Number FCXA-IC-
                      93IFS-B

09/13/93   A31565     Preaward Audit of Multiple Award Schedule Contract:
                      General Binding Corporation, Solicitation Number
                      FCGE-93-C6-0 128-N

09/14/93   A33459     Preaward Audit of Multiple Award Schedule Contract:
                      The Scale People, Inc., Solicitation Number FCGS-
                      X2-93-0037 -B

09/15/93   A33461     Pre award Audit of Pricing Proposal: PRC Inc.,
                      Solicitation Number OPM-RFP-9I-02503

09/15/93   A33462     Pre award Audit of Pricing Proposal: Booz, Allen &
                      Hamilton, Inc., Solcitation Number OPM-RFP-91-02503

09/17/93   A31566     Preaward Audit of Multiple Award Schedule Contract:
                      Crenlo, Inc./Emcor Products, Solicitation Number
                      FCNH-91-F201-N-4-27-93

09/20/93   A00063     Postaward Audit of Multiple Award Schedule Contract:                   $3,778,737
                      The Hon Company, Contract No. GS-00F-84245 for the
                      Period July 18, 1986 through September 30, 1988

09/27/93   A31227     Preaward Audit of Multiple Award Schedule Contract:
                      Thomasville Furniture Industries, Incorporated,
                      Solicitation Number 3FNH -93-D303-B

09/29/93   A22153     Limited Postaward Audit of Current Multiple Award
                      Schedule Contract Number GS-02F-2043A: Graphic
                      Controls Corporation




                                                                              Office of Inspector General 43
                     Appendix //- Audit Report Register
                                                                                         Financial
                                                                                    Recommendations
                                                                                 Funds To      Questioned
Date of     Audit                                                                Be Put To    (Unsupported)
Report      Number                             Title                             Better Use        Costs


IRMS        INTERNAL AUDITS
07/16/93    A23638      Audit of FTS2000 7 to 10 Digit Conversion

08/25/93    A32427      Audit of Federal Emergency Communications Plans,
                        Region 9

08/26/93    A11058      Audit of the Information Resources Management
                        Service's Local Telephone Service Program

09/23/93    A31811      Audit of the Development of Federal Supply Service's
                        Automated Report of Discrepancy Resolution System

09/29/93    A32171     Audit of Information Systems Operations Division,
                       Region 7

IRMS        CONTRACT AUDITS
04/02/93    A32469      Limited Audit of Government Billings: Micro Focus,                        $40,870
                        mcorporated, Contract Number GSOOK90AGS5251PS02

04/26/93    A30647      Preaward Audit of Change Order Proposal: AT&T
                        Communications, Contract Number GS-00K-89AHD-
                        0008

05/03/93    A33713      Preaward Audit of Cost or Pricing Data: CElS Federal,
                        Incorporated, Subcontractor to Control Data,
                        Solicitation No. GSC-KEGD-92-0005

05/14/93   A33715      Preaward Audit of Cost or Pricing Data: Everex Federal
                       Systems, Incorporated, Solicitation Number GSC-KESF-
                        B-C-00048-N-10-29-92

05/14/93   A33724      Limited Scope Postaward Audit: Everex Federal Systems,                    $11,699
                       Incorporated, Contract Number GSOOK92AGS6013 for
                       the Period April 1, 1992 to March 31, 1993

05/19/93   A32148      Preaward Audit of Multiple Award Schedule Contract:
                       Dell Marketing L.P., Contract Number GSOOK91AGS-
                       5291

05/19/93   A32152      Preaward Audit of Multiple Award Schedule Contract:
                       Information Handling Services Inc., Renewal of Contract
                       Number GSOOK92AGS5484




44 Semiannual Report To The Congress
                     Appendix //- Audit Report Register
                                                                                          Financial
                                                                                   ~
                                                                                     Recommendations
                                                                                       --~   ~~~   ~--   - - ---

                                                                                  Funds To      Questioned
Date of    Audit                                                                  Be Put To    (Unsupported)
Report     Number                              Title                              Better Use        Costs

OS/28/93   A30669      Pre award Audit of Change Order Proposal: AT&T
                       Communications, Contract Number GS-00K-89-
                       AHD0008

OS/28/93   A30927      Preaward Audit of Multiple Award Schedule Contract:
                       Gandalf Systems Corporation, Contract Number GSOOK-
                       92AGS6083,Renewlli

OS/28/93   A33423      Preaward Audit of Cost or Pricing Data: Fllicon Micro-
                       systems, Inc., Solicitation Number GSC-KESF-B-C-
                       00048-N-1O-29-92

06/30/93   A30648      Pre award Audit of Change Order Proposlli: AT&T
                       Communications, Contract Number GS-00K-89-
                       AHD0008

07/02/93   A33729      Pre award Audit of Cost or Pricing Data: Seta
                       Corporation, Solicitation Number GSC-KECP-93-00 1

07/09/93   A32490      Preaward Audit of Multiple Award Schedule Contract:
                       Interactive Development Environments, Solicitation
                       Number GSC-KESO-C-00049-N-4-20-93

07/29/93   A3034 1     Postaward Audit of Multiple Award Schedule Contract:                              $111,314
                       Gensym Corporation, Contract Number GSOOK92-
                       AGS6082 for the Period April 1, 1992 Through
                       March 31,1993

08/06/93   A32172      Preaward Audit of Multiple Award Schedule Contract:
                       Kavouras Inc., Solicitation Number GS-KESO-C-
                       00049-N-4-20-93

08/09/93   A33735      Preaward Audit of Cost or Pricing Data: Information
                       Systems & Networks Corporation, Solicitation No.
                       GSC-KEGD-93-1006

08/17/93   A31558      Preaward Audit of Multiple Award Schedule Contract:
                       Computer Sllies Intemationlli, Inc., Solicitation Number
                       GSC-KESO-C-00049-N -4-20-93

08/18/93   A31567      Limited Scope Audit of Government Billings: Computer                                $6,398
                       Sllies Intemationlli, Inc., Contract Number GSOOK91AG-
                       S5870/PS02




                                                                                  Office of Inspector General 45
                     Appendix //- Audit Report Register
                                                                                        Financial
                                                                                   Recommendations
                                                                               --------------   ------   -------

                                                                                Funds To      Questioned
Date of     Audit                                                               Be Put To    (Unsupported)
Report      Number                            Title                             Better Use        Costs

08/18/93    A33709      Audit of Termination Proposal: Evaluation Research
                        Corporation, Contract Number GS-00K-90AJC0554,
                        Task Order Number K0091AJ0532

08/20/93    A30685      Preaward Audit of Multiple Award Schedule Contract:
                        Brookvale (Computer) Associates, Inc" Solicitation
                        Number GSC-KESO-C-00049-N-4-20-93

08/20/93    A32530      Preaward Audit of Multiple Award Schedule Contract:
                        Boole & Babbage, Inc., Solicitation Number GSC-KESO-
                        C-00049-N-4-20-93

08/23/93   A32178       Limited Postaward Audit of Multiple Award Schedule                                     $22,695
                        Contract: Standard Communications Corporation,
                        Contract Number GSOOK91AGS0729

08/24/93   A30343       Preaward Audit of Multiple Award Schedule Contract:
                        Miles Inc., AGFA Division, Solicitation Number GSC-
                        KESO-C-00049

08/24/93   A32529       Preaward Audit of Multiple Award Schedule Contract:
                        Oracle Corporation, Solicitation Number GSC-KESO-C-
                        00049-N-4-20-93

08/27/93   A30682       Preaward Audit of Multiple Award Schedule Contract:
                        Information Builders, Inc., Solicitation Number
                        GSC-KESO-C-00049-N

08/30/93   A30342       Preaward Audit of Multiple Award Schedule Contract:
                        Computervision Corporation, Solicitation Number
                        GSC-KESO-C-00049

08/30/93   A32175      Preaward Audit of Multiple Award Schedule Contract:
                       QMS, Inc., Solicitation Number GSC-KESO-C-
                       00049-N-4-20-93

08/31/93   A30689      Preaward Audit of Multiple Award Schedule Contract:
                       Eastman Kodak Company, Solicitation Number GSC-
                       KESO-C-00049-N

09/03/93   A32492      Preaward Audit of Multiple Award Schedule Contract:
                       Sun Microsystems Federal, Inc., Solicitation Number
                       GSC-KESO-C-00049-N-4-20-93




46 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                       Financial
                                                                                  Recommendations
                                                                               ~~---   ~.~-        --.~----




                                                                               Funds To      Questioned
Date of    Audit                                                               Be Put To    (Unsupported)
Report     Number                            Title                             Better Use        Costs

09/13/93   A33453     Preaward Audit of Multiple Award Schedule Contract:
                      1YX Corporation, Solicitation Number GSC-KESO-C-
                      00049-N-4-20-93

09/14/93   A30695     Preaward Audit of Multiple Award Schedule Contract:
                      Sharp Electronics Corporation, Solicitation Number
                      GSC-KES-00064-N

09/14/93   A33450     Preaward Audit of Multiple Award Schedule Contract:
                      Computer Associates International, Inc., Solicitation
                      Number KESO-GSC-C-00049-NA-20-93

09/15/93   A33730     Preaward Audit of Multiple Award Schedule Contract:
                      American Management Systems, Incorporated,
                      Solicitation Number KECP-91-00 1

09/15/93   A33740     Preaward Audit of Cost or Pricing Data: EER Systems
                      Corporation, Solicitation Number GSC-KEGD-92-0008

09/16/93   A32168     Preaward Audit of Multiple Award Schedule Contract:
                      Harris Adacom Systems Incorporated, Solicitation
                      Number GSC-KESO-C-00049-N-4-20-93

09/17/93   A32501     Preaward Audit of Multiple Award Schedule Contract:
                      Xerox Engineering Systems, Inc., Solicitation Number
                      GSC-KESO-C-00049-NA-20-93

09/22/93   A32509     Preaward Audit of Multiple Award Schedule Contract:
                      Silicon Graphics, Incorporated, Solicitation Number
                      GSC-KESO-C-00049-N -4-20-93

09/22/93   A32531     Preaward Audit of Multiple Award Schedule Contract:
                      Tandem Computers, Inc., Solicitation Number GSC-
                      KESO-C-00047 -N-4-20-93

09/23/93   A32191     Preaward Audit of Multiple Award Schedule Contract:
                      Texas Instruments, Inc., Solicitation Number GSC-KESO-
                      C-00049-NA-20-93

09/23/93   A32502     Preaward Audit of Multiple Award Schedule Contract:
                      Tektronix, Inc., Solicitation Number GSC-KESO-C-
                      00049-N-4-20-93

09/24/93   A30944     Preaward Audit of Multiple Award Schedule Contract:
                      Canon U.S.A., Inc., Solicitation Number GSC-KES-
                      00064-N-05-19-93



                                                                                Office of Inspector General 47
                    Appendix //- Audit Report Register
                                                                                        Financial
                                                                                   Recommendations
                                                                                 -----  --~----   ----   -------

                                                                                Funds To      Questioned
Date of    Audit                                                                Be Put To    (Unsupported)
Report     Number                              Title                            Better Use        Costs

09/24/93   A33456       Preaward Audit of Multiple Award Schedule Contract:
                        Legent Corporation, Solicitation Number GSC-KESO-
                        C-00049-N-4-20-93

09/24/93   A33467       Limited Scope Postaward Audit of Multiple Award                                        $1,018
                        Schedule Contract: Legent Corporation, Contract
                        Number GS-00K-93-AGS-5661

09/24/93   A33738      Preaward Audit of Cost or Pricing Data: High
                       Performance Technologies, Inc., Solicitation No. GSC-
                       KEGD-92-0008

09/27/93   A32521      Preaward Audit of Multiple Award Schedule Contract:
                       Ingres Corporation, Solicitation Number GSC-KESO-
                       C-00049-N-4-20-93

FTS2000lNTERNAL AUDITS
05/13/93   A33708      Audit of FTS2000 Security Plan and Controls

06/21/93   A23642      Audit of FTS2000 Service Order Handling

OTHER INTERNAL AUDITS
04/13/93   A32151      Audit ofImprest Fund, Denver Buildings Manager Field
                       Office

OS/27/93   A21268      Audit of Charleston, South Carolina Imprest Fund
                       Operations, Region 4

OS/28/93   A30001      OIG Audit Highlights of GSA Services and Staff Offices
                       Reviewed in Fiscal Year 1992

06/24/93   A22732      General Services Administration Results of the Fiscal
                       Years 1992 and 1991 Consolidated Financial Statements
                       Audit

07/28/93   A32455      Review of Business        Service   Center,   Auburn,
                       Washington, Region 10

07/29/93   A31804      Audit of Controls Over Payments Made by the Federal
                       Supply Service Payment System

08/12/93   A32139      Audit of Regional Acquisition Management Staff (RAMS)
                       Region 7



48 Semiannual Report To The Congress
                    Appendix 11- Audit Report Register
                                                                                        Financial
                                                                                   Recommendations
                                                                                     ------------=---c-:--
                                                                                Funds To       Questioned
Date of    Audit                                                                Be Put To     (Unsupported)
Report     Number                            Title                              Better Use        Costs

09/08/93   A31519     Audit of Time and Attendance Practices, Contracts
                      Division, Region 5

09/16/93   A32123     Audit of Controls Over Prevention of Duplicate Manual
                      Payments, Region 7

09/16/93   A32164     Audit of Time and Attendance Practices, Federal
                      Protective Service Division, Fort Worth, Texas

09/20/93   A32538     Audit of Imprest Fund Number 1001, Alaska Field Office,
                      Region 10

09/23/93   A32176     Audit of Time and Attendance Practices, Finance
                      Division, Region 7

NON-GSA               INTERNAL AUDITS
08/19/93   A33449     Audit of the Administrative Procedures of the Adminis-
                      trative Conference of the United States

08/19/93   A33451     Audit of the Administrative Procedures of the National
                      Capital Planning Commission




                                                                                Office of Inspector General 49
                          Appendix III .... Delinquent Debts

GSA's Office of the Chief Financial Officer provided the     • Developed internal procedures for the non-Federal
following information:                                         claims desk to ensure that a claim will be identified
                                                               and recorded in the accounting system and that
GSA Efforts to Improve Debt Collection                         follow-up collection action is taken.
During the period April 1, 1993 through September 30,        • Continued improvement in employee-related matters:
1993, GSA efforts to improve debt collection and reduce        recognition; provision of additional personal computers
the amount of debt written off as uncollectible focused        and laser printers; direct access to management; and
on upgrading the collection function and enhancing debt        formal training and attendance at seminars.
management. These activities included the follOwing:
                                                             • Conducting a pilot with the IRS to report all GSA
• Received approval from the Office of General Counsel         payments to corporations. As a result, IRS will be able
  to use social security numbers in our process for            to update its business master file and expand its
  collecting non-Federal debts.                                taxpayer compliance initiative to crosscheck reported
                                                               income. The electronic matching of the amount paid
• Initiated action to participate fully in the Federal Tax     to vendors with the amount reported on their annual
  Refund Offset Program as required by the Cash                tax returns will be more efficient and accurate than
  Management Improvement Act Amendments of 1992                past manual efforts. When fully operational, this
  (P.L. 102-589). This program involves the on-line            enhancement will generate additional income. Also, it
  submission of debtor information to the Internal
                                                               will seIVe to prevent Federal agencies from paying busi-
  Revenue Service (IRS), thereby increasing the
                                                               nesses that have delinquent obligations.
  potential of collection by administrative offset from a
  debtor's tax refund.


Non-Federal Accounts Receivable

                                                      As of                 As of
                                                  April 1, 1993       September 30,1993            Difference

 Total Amounts Due GSA                             $47,560,156             $43,085,423            $(4,474,733)
 Amount Delinquent                                 $19,836,129             $18,973,390            $   (862,739)

 Total Amount Written
 Off as Uncollectible
 Between 4/1/93 and
 9/30/93                                               $486,087



Of the total amounts due GSA and the amounts                 approximately $2.7 million and $1.9 million,
delinquent as of April 1, 1993 and September 30, 1993,       respectively, are being disputed.




50 Semiannual Report To The Congress
                     Appendix IV -- Reporting Requirements

The table below cross-references the reporting                                     the Congress in Senate Report No. 96-829 relative to the
requirements prescribed by the Inspector General                                   1980 Supplemental Appropriations and Rescission Bill
Act of 1978, as amended, to the specific pages where                               is also cross-referenced to the appropriate page of the
they are addressed. The information requested by                                   report.



                                                       Requirement                                                                                  Page
 Inspector General Act
      Section 4(a)(2)-Review of Legislation and Regulations ......................................................................... 15

      Section 5(a)(1)-Significant Problems, Abuses, and Deficiencies ........................................................... 2,7

      Section 5(a)(2)-Recommendations With Respect to Significant Problems, Abuses,
        and Deficiencies .............................................................................................................................. 2,7

      Section 5(a)(3)-Prior Recommendations Not Yet Implemented ............................................................ 23

      Section 5(a)(4)-Matters Referred to Prosecutive Authorities ................................................................. 19

      Sections 5(a)(5) and 6(b)(2)-Summary ofInstances Where Information Was Refused ......................... None

      Section 5(a)(6)-List of Audit Reports .................................................................................................... 26

      Section 5(a)(7)-Summary of Each Particularly Significant Report ....................................................... 2,7

      Section 5(a)(8)-Statistical Tables on Management Decisions on Questioned Costs ............................. 18

      Section 5(a)(9)-Statistical Tables on Management Decisions on Recommendations
        That Funds Be Put to Better Use ..................................................................................................... 17

      Section 5(a)(1O)-Summary of Each Audit Report Over 6 Months Old for Which No
        Management Decision Has Been Made ........................................................................................... None

      Section 5(a)(11)-Description and Explanation for Any Significant Revised
        Management Decision ..................................................................................................................... None

      Section 5(a)(12)-Information on Any Significant Management Decisions With Which
        the Inspector General Disagrees ..................................................................................................... None

 Senate Report No. 96-829
      Resolution of Audits ............................................................................................................................ 16

      Delinquent Debts ................................................................................................................................. 50




                                                                                                                        Office of Inspector General 51
                                       Notes




52 Semiannual Report To The Congress
No s




       Office of Inspector General 53
                                       Notes




54 Semiannual Report To The Congress
                         #flt
Federal Recycling Program , . , Printed on Recycled Paper
